<html>
<title> - OVERSIGHT OF THE BUREAU OF PRISONS: FIRST-HAND ACCOUNTS OF CHALLENGES FACING THE FEDERAL PRISON SYSTEM</title>
<body><pre>[Senate Hearing 114-475]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-475

                  OVERSIGHT OF THE BUREAU OF PRISONS:
       FIRST HAND ACCOUNTS OF CHALLENGES FACING THE FEDERAL PRISON SYSTEM

=======================================================================

                                 HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             FIRST SESSION

                               ----------                              

                             AUGUST 4, 2015

                               ----------                              

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        



                     U.S. GOVERNMENT PUBLISHING OFFICE
22-227 PDF                  WASHINGTON : 2016                     

________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-�091800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fa9d8a95ba998f898e929f968ad4999597d4">[email&#160;protected]</a>  
      
  
      
       
       
       COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                    Keith B. Ashdown, Staff Director
       Patrick J. Bailey, Chief Counsel for Governmental Affairs
              David N. Brewer, Chief Investigative Counsel
                      Caroline T. Ingram, Counsel
              Rebecca N. Nuzzi, Professional Staff Member
              Gabrielle A. Batkin. Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
                     Kevin Burris, Minority Counsel
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk
                           
                           
                           C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Carper...............................................     2
    Senator Booker...............................................     4
    Senator Ayotte...............................................    25
    Senator Baldwin..............................................    27
    Senator McCaskill............................................    42
Prepared statements:
    Senator Johnson..............................................    49
    Senator Carper...............................................    50

                               WITNESSES
                        Tuesday, August 4, 2015

Piper Kerman, Author, Orange is the New Black; My Year in a 
  Women's Prison.................................................     7
Jerome Dillard, Reentry Coordinator, Dane County, Wisconsin......     9
Udi Ofer, Executive Director, American Civil Liberties Union of 
  New Jersey.....................................................    11
Charles E. Samuels, Jr., Director, Federal Bureau of Prisons, 
  U.S. Department of Justice.....................................    31
Michael E. Horowitz, Inspector General, U.S. Department of 
  Justice........................................................    33

                     Alphabetical List of Witnesses

Dillard, Jerome:
    Testimony....................................................     9
    Prepared statement...........................................   104
Horowitz, Michael E.:
    Testimony....................................................    33
    Prepared statement...........................................   132
Kerman, Piper:
    Testimony....................................................     7
    Prepared statement with attachments..........................    52
Ofer, Udi:
    Testimony....................................................    11
    Prepared statement...........................................   108
Samuels, Charles E., Jr.:
    Testimony....................................................    31
    Prepared statement...........................................   123

                                APPENDIX

Letter submitted by Mr. Horowitz.................................   142
Statements submitted for the Record
    Center for Naval Analyses....................................   144
    Eric Young President Council of Prison Locals................   406
    Kevin A. Ring, Director of Strategic Families Against 
      Mandatory Minimums.........................................   414
    Eric Williams................................................   421
Response to post-hearing questions submitted for the Record
    Ms. Kerman...................................................   423
    Mr. Ofer.....................................................   445
    Mr. Samuels..................................................   462

 
 OVERSIGHT OF THE BUREAU OF PRISONS: FIRST-HAND ACCOUNTS OF CHALLENGES 
                    FACING THE FEDERAL PRISON SYSTEM

                              ----------                              


                        TUESDAY, AUGUST 4, 2015

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Lankford, Ayotte, Ernst, Carper, 
McCaskill, Baldwin, Heitkamp, Booker, and Peters.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good morning. This hearing will come to 
order.
    Let me just say, I am really looking forward to this one. I 
was telling the witnesses, I have read all the testimony, and I 
generally do that to the best of my ability. Sometimes, the 
testimony provided before this Committee can be a little dry, 
and as I am reading it late at night, it will put me to sleep. 
Not so in this case whatsoever. I think the testimony was 
fascinating, partly because I am somewhat new to this issue.
    I am going to keep my statement somewhat brief, because I 
know Senator Booker would like to make an opening statement. I 
am happy to have him do so, because he has been obviously 
involved in this issue a whole lot longer than I have.
    I just want to make a couple brief remarks. Being an 
accountant, being a business guy, I am pretty data-driven. The 
data, the statistics on this particular problem, the Bureau of 
Prisons (BOP) and our high levels of incarceration rates, are 
pretty stark.
    In 1980, for example, there were 25,000 people in the 
Federal Prison System. Today, there are 209,000. That is a 736 
percent increase as our population has only increased 40 
percent. In total, back in 1980, there were about 500,000 
people in prison. Today, there are 2.3 million. We in America 
have the highest level of incarceration in the world, in 2013, 
716 people per 100,000 population. The next closest country was 
Rwanda with 492. If you take a look at Canada, it is 118.
    So, I guess my primary comment is, when you look at those 
stark statistics and you see--and, by the way, and I appreciate 
that Jerome Dillard is here from Madison, Wisconsin. I met with 
him earlier as part of a group called Nehemiah Project, a group 
of individuals, some of them ex-offenders spending some time in 
jail, trying to help other people re-enter society. I remember 
during that meeting, Jerome, how many times did I wince as I 
was being told the stories of how unbelievably difficult we 
make it for former offenders, people in jail to re-enter 
society.
    So, the purpose of this hearing is to lay out these 
realities, understand that what the Bureau of Prisons is 
dealing with is an incredibly difficult and complex problem, 
and by the way, I do have to mention that the testimony by 
Charles Samuels, the current Director, I think is also 
powerful, and he kind of lays out a little bit of the problem 
in terms of the dual mission of the Bureau of Prisons. Let me 
just quickly read from his testimony. ``The dualfold mission is 
to protect society by confining offenders in prisons and 
community-based facilities that are safe, humane, cost 
efficient, and appropriately secure, and then, second, to 
ensure that offenders are actually participating in programs 
that will assist them in becoming law-abiding citizens when 
they return to our communities.''
    That is a tough task, and I wish I could say I was looking 
at the statistics and say that, boy, we are really nailing that 
one. We have really got this problem solved. We do not. We are 
a long ways from it. I think the testimony will be that in the 
Federal system we have only a 41 percent recidivism rate, where 
in State and locals it is over 60 percent. I guess when you 
look at that, we are maybe doing something better on the 
Federal level than we are doing State and local, but boy, that 
is a long way from a successful result, and I am sure you will 
agree with me on that.
    I am not going to steal Ms. Kerman's thunder off of her 
testimony, but at the very end, I want everybody to pay very 
close attention to the quote she is going to provide from Mr. 
Thomas Mott Osborne, because I think it really lays out exactly 
what is at issue here and exactly the question we should be 
asking as a civilized society.
    So, with that, I will turn it over to my Ranking Member, 
Senator Tom Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Mr. Chairman.
    I want to thank Senator Booker for encouraging us to hold 
this important hearing. We want to thank all of you for coming 
as witnesses.
    My day job before I came here to the U.S. Senate was I was 
privileged to be Governor of Delaware for 8 years and very 
actively involved in the National Governors Association (NGA). 
In Delaware, we do not have sheriffs' jails. We do not have 
county jails or city jails. We have a State correctional 
system. We have one for adults and we have one for juveniles.
    In my second term as Governor, a fellow named Barry 
McCaffrey came to Delaware, General Barry McCaffrey, Retired, 
and he was at the time the Nation's Drug Czar, and he wanted to 
come and visit a program in the city of Wilmington at Gander 
Hill Prison because we were doing a pretty good job in terms of 
reducing recidivism by about half, from about 75 percent to 
maybe 40 percent. He wanted to find out, how are we doing it. 
He brought with him an ABC camera crew, as well.
    I will never forget, before he actually went into the 
prison and looked at the program to see how it worked, we met 
with about 50 inmates, and we met in a room much smaller than 
this room. They were all in their white garb, and General 
McCaffrey and myself. And, I had been to many of their high 
schools or their middle schools, grade schools, through 
churches, their ballgames, and had some idea who some of them 
were. They knew who I was.
    And, I said to the guys before we got started on the 
program part of the tour, I said to these 50-some, most of 
them, I do not know, 19, 20, 21, 22 years old, I said, how did 
you guys end up getting here? What happened in your lives or 
did not happen in your lives that led you here? About five or 
six guys spoke up before we took our tour and they all told 
stories that were very similar.
    I was born when my mom was young. I never knew my dad. I 
ended up in kindergarten. Other kids could actually read. They 
knew their letters. They knew their numbers. I could not. I got 
into first grade and I started falling behind. In the second 
grade and the third grade and the fourth grade, just falling 
further behind. Along about the fourth grade, this one guy 
said, I realized if I just act up in class and just be a real 
nuisance, the teacher would stop calling on me. And, so, he 
would put his head down and just stay out of trouble.
    And, they said, eventually, they will be put out in the 
hall, probably about the fifth or sixth grade. And probably 
when I was in the seventh or eighth grade, I was suspended from 
school. And for a while, he said, I liked that, because I was 
no longer embarrassed by how little I knew.
    And, he said, when I was in the ninth grade, I got expelled 
and I found myself on the outside in a world, he said, 
everybody wants to be popular. Guys like me want to be popular, 
he said. If you are a good athlete, you can be popular in 
school. If you are smart, you can be popular in school. If you 
are good with girls, you can be popular in school. He said, I 
was none of those.
    And, he said, I was on the outside and I wanted to feel 
good about myself, and the only way I could feel good about 
myself was to take drugs or to consume alcohol, and when I did 
that, I felt good about myself. He said, I did not have any 
ability to pay for those things. I ended up in a life of crime 
and I ended up in this prison.
    Every one of them told the same story.. And the fellow who 
was the Commissioner of Corrections for me at the time was a 
fellow named Stan Taylor, a wonderful guy. He used to say to 
me, ``95 to 98 percent of the people that are incarcerated in 
our State are going to end up being released and come back into 
our society. And we can send them back out into society as 
better people, better parents, or better criminals. And,'' he 
said, ``it is our choice. It is our choice.'' And, to an 
extent, it is a choice of the inmate themselves.
    So, we are big on root causes in this Committee. I am big 
on root causes in this Committee. And, if we take young men, 
young women, not-so-young men and not-so-young women, and 
actually do something about their addictions while they are 
incarcerated, that is helpful. If we do something about the 
lack of an education, that is helpful. If we do something about 
their lack of work skills or actually the ability to have to 
get up in the morning and know they have a job to go to, that 
is helpful. All the above.
    States are laboratories of democracy. We can learn a lot 
from them. And we can learn from one another. Today, we are 
going to learn from you and we look forward to this very much.
    Again, Cory, I just want to thank you for suggesting that 
we be here. Let us have a good hearing. Thank you.
    Chairman Johnson. Thank you, Senator Carper.
    Again, I will ask for unanimous consent to enter my written 
opening statement in the record,\1\ and with that, Senator 
Booker.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 49.
---------------------------------------------------------------------------

              OPENING STATEMENT OF SENATOR BOOKER

    Senator Booker. I just want to start by expressing my 
gratitude to the Ranking Member and to the Chairman for having 
this hearing. It has been probably the best experience I have 
had in the U.S. Senate since I began about 18, 19 months ago, 
to find such bipartisan willingness to deal with issues of 
justice in our country. It is extraordinary from my hour 
meeting with Chairman Grassley yesterday to being able to sit 
with you today, Chairman, to see this bipartisan willingness to 
confront the wrongs in our country that surround criminal 
justice and a determination to do something about it.
    Chairman Johnson. Let me just interject before you go on, 
and we talked about this earlier. I was going to do a field 
hearing in Milwaukee on high levels of incarceration. We did 
not do it on that subject because this is so complex and it was 
difficult to design the hearing so it would not be 
inflammatory.
    Senator Booker. Yes.
    Chairman Johnson. So, again, I appreciate your working with 
me so we hold this first one here. But, again, this will be the 
first----
    Senator Booker. Yes.
    Chairman Johnson [continuing]. In a series. What we ended 
up doing instead is we held a hearing on school choice, which 
starts really at the beginning part of this time spectrum in 
terms of not providing a proper education, and it ends up 
leading to this end result in terms of prison.
    But, again, I appreciate your willingness to work with me 
on this, and I am hoping at some point in time we can move this 
discussion into different areas that this is pretty relevant. 
One of them certainly would be in Milwaukee. Thank you.
    Senator Booker. I am grateful to you. We have had 
countless, now, conversations about criminal justice reform, 
and your eagerness, willingness, sincere desire to do something 
about it has been, I think, really encouraging to me in my 
early months in the Senate, so I am thankful for that and for 
this opportunity to be here today.
    It is a movement now in our country to do something about 
it. When you have a President of the United States willing to 
visit a prison, being the first person to do so, we see that 
that is a part of our culture as a Christian. It says in the 
Bible, Matthew 25, ``When I was hungry, you gave me something 
to eat. When I was thirsty, you gave me something to drink. 
When I was in prison, you came to visit me.'' This 
understanding that our criminal justice system is not about 
fear and retribution but should be guided by principles of 
justice, fairness, and ultimately redemption, to me, that is 
the American way.
    But, unfortunately, we have gone in a way that so far cuts 
against our common values and our ideals. This age of mass 
incarceration on a whole is violating our core principles in so 
many areas. To have us, as we claim to be the land of freedom 
and liberty, but to have one out of every four imprisoned 
people on the planet Earth here in the United States of 
America, even though we only have 4 to 5 percent of our 
population, runs contrary to our core ideals.
    To do this at such a massive expense to the taxpayer, 
unnecessarily egregious expenditures, where we spend about a 
quarter-of-a-trillion dollars a year incarcerating human 
beings, many of whom do not need to be incarcerated at the 
lengths in which they are, runs against our values.
    When we see our infrastructure crumbling in this country, 
yet we have the resources between 1990 and 2005 to build a new 
prison in the United States every 10 days, that runs against 
our fiscal prudence and our values as a Nation.
    When we see poor people being ground up into a system but 
for the fact that they do not have the resources for their 
liberation, that we have modern day debtors' prisons in our 
country, that runs contrary to our common values.
    We now are at a point in our country where we have 
literally almost one out of three Americans, between 75 and 100 
million Americans, have an arrest record. If we were to go back 
to the Revolutionary times and tell them that there was going 
to be a government in this land that would be seizing the 
liberty of almost one out of three people, we would definitely 
have sparked that Revolutionary spirit. And, now is a time that 
we need a revolution when it comes to issues of crime and 
punishment.
    Now, the Chairman was very clear, and I think it is 
important to restate, that this is a narrow hearing about one 
specific aspect to begin a process of looking for reforms. But 
please know, if you look at just our Bureau of Prisons, our 
Federal prison population has expanded 800 percent since 1980. 
The Bureau of Prisons now has almost 200,000 inmates and it is 
35 to 40 percent over-capacity. It employs nearly 40,000 
people, and last year, in fiscal year (FY) 2014, the Bureau of 
Prisons' enacted budget totaled an astonishing $6.9 billion. 
Just working on transportation and commuter rail, seeing the 
fraction of that we are debating over when we are spending this 
much.
    This Bureau of Prisons now is 25 percent of the Department 
of Justice (DOJ) discretionary budget. In my very first meeting 
with then-Attorney General (AG) Holder, he actually talked to 
me about the urgent crisis he faces if the Bureau of Prisons is 
squeezing out his entire budget, taking money away from things 
that we should be investing in for homeland security for our 
protection overall as a citizenry because of this massive 
explosion.
    The Bureau of Prisons is so large that it is absolutely 
critical that we in Congress, this Committee, exercise our 
oversight to ensure that taxpayer dollars are being spent 
wisely, and especially in light of what many States are 
showing, that you can reduce your prison populations 
dramatically, saving taxpayer dollars and lowering crime at the 
same time.
    So, make no mistake. As a mayor, I learned that you have to 
make sure that when a crime is committed that there is a 
punishment and people get a proportional punishment. But, I am 
troubled by some of the practices that are obviously failing to 
live up to our common values and just do not make in any way 
economic sense, as well.
    And, so, I am grateful for this hearing. There are some 
areas which I think we really need to drill down that are in 
those small areas that we can make improvements now that can, 
Mr. Chairman, make a big difference.
    One of them is solitary confinement, known in the Bureau of 
Prisons as segregated housing units. It is a practice that many 
people, medical professionals, human rights activists, civil 
rights activists, indeed, other countries, consider torture 
because of its impact. Prolonged use of solitary confinement on 
an inmate often results in severe psychological harm.
    Justice Kennedy in a recent Supreme Court decision 
questioned the constitutionality of this punishment, saying 
``the penal system has a solitary confinement regime that will 
bring you to the edge of madness, perhaps madness itself.'' The 
medical community confirms that reality. It is time that the 
Federal Government acts as a model to ending this practice of 
solitary confinement.
    Also, Congress gave the courts the authority to release 
prisoners early for extraordinary compelling reasons, known as 
compassionate release. The Bureau of Prisons has the ability to 
release prisoners now that are facing imminent death or serious 
incapacitation. The data is clear on this population. They are 
not a threat to our safety and our community, and they are 
costing taxpayers extraordinary amounts of money. This is a 
Compassionate Release Program that is properly named and should 
be explored.
    Then-Attorney General Holder issued guidelines to allow the 
Bureau of Prisons to expand the pool of applicants who may be 
considered for compassionate release. This is something we 
should look at.
    Finally, I hope that we can explore what programming the 
Bureau of Prisons provides to those that are the least of these 
in our society, those that are often marginalized, and I am 
specifically talking about those who are suffering from mental 
health challenges and drug addictions. Right now, States across 
America are struggling to control, for example, a growing 
heroin epidemic, and many of these people are finding 
themselves addicted in a Federal system that does not 
adequately treat them. The Bureau of Prisons must find a way to 
assist inmates who are struggling with addiction and with 
mental health.
    Again, I want to thank you, Chairman. This is a hearing 
that I have been very excited about. I want to thank our 
witnesses. I especially want to thank Charles Samuels, who has 
met with me personally. We have had great conversations. His 
tenure is actually coming to an end, but he is a dedicated 
public servant representing the administration, and I know they 
are committed to reforms and have a record of making some 
progress on these issues that I have outlined.
    Thank you.
    Chairman Johnson. Thank you, Senator Booker.
    And, again, we all want to thank the witnesses and welcome 
them. It is the tradition of this Committee to swear in 
witnesses, so if you will all rise and raise your right hand.
    Do you swear the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Ms. Kerman. I do.
    Mr. Dillard. I do.
    Mr. Ofer. I do.
    Chairman Johnson. Thank you. Please be seated.
    Our first witness is Piper Kerman. She is the author of 
Orange is the New Black, a memoir about her experiences in 
Federal prison. She is also a Board Member of the Women's 
Prison Association, which works to promote alternatives to 
incarceration to women. Ms. Kerman.

TESTIMONY OF PIPER KERMAN,\1\ AUTHOR, ORANGE IS THE NEW BLACK: 
                  MY YEAR IN A WOMEN'S PRISON

    Ms. Kerman. Mr. Chairman, Ranking Member, and Members of 
the Committee, I appreciate you inviting me here today. In my 
memoir, Orange is the New Black, I recount in detail the 13 
months that I spent incarcerated in the Federal Prison System, 
with most of my time served at the Federal Correctional 
Institution (FCI) in Danbury, Connecticut.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Kerman appears in the Appendix on 
page 52.
---------------------------------------------------------------------------
    I have worked with many women and men who are returned 
citizens, like me, and we all want to get back on our feet, to 
reclaim our rights of citizenship, and to make positive 
contributions to our communities. Our experiences are essential 
to understanding the reform that is needed in our criminal 
justice system so that it will provide for public safety in a 
way that is legal and humane and sensible, and that is why I am 
here today.
    Women are the fastest growing population in the American 
criminal justice system, and their families and communities are 
increasingly affected by what happens to women behind bars. 
According to the Bureau of Justice Statistics, 63 percent of 
women in prison are there for a non-violent offense. Many are 
incarcerated due to substance abuse and mental health issues, 
which are overwhelmingly prevalent in prisons and jails. And, 
the rate of sexual abuse and other physical violence that women 
experience prior to incarceration is staggering.
    Female prisoners suffer these problems at greater rates 
than male prisoners and these experiences are relevant both to 
their crimes and to their incarceration. But, these issues are 
not being adequately addressed by the Bureau of Prisons.
    The research on criminal justice involved women and girls 
shows that the risk factors I mentioned require different 
approaches in order to reduce women's recidivism and result in 
successful reentry. This is not unlike findings in other 
fields, such as health care, where research shows that women 
experience heart attack symptoms quite differently from men and 
their treatment needs differ, and this understanding has saved 
women's lives.
    The Bureau of Prisons should adopt gender-responsive 
correctional approaches that interrupt cycles of unnecessary 
suffering. States like Washington provide a road map to do this 
successfully.
    When I was locked up in Danbury, I knew women who were 
trying to raise their children during brief reunions in the 
visitors' room, while fending off sexual harassment and 
struggling with addiction and trying to get a high school 
education so that when they got out, they stood some chance of 
surviving, despite their felony conviction.
    I saw women in Bureau of Prisons prisons denied necessary 
medical care and women with mental health issues wait for 
months to see the one psychiatrist who was available for 1,400 
women. And, that is unimaginable in a system where at least 65 
percent of women experience some kind of mental illness.
    Equally shocking were the mandatory reentry classes inmates 
took to prepare to leave prison. I attended one on housing, 
which was led by a man who worked in construction in the 
prison, and the mostly poor and overwhelmingly minority women 
who were attending that class desperately wanted to know how 
someone with a felony conviction and few resources could find 
safe, affordable housing to live in after release. And instead, 
we heard about fiberglass insulation and roof maintenance and 
some other home improvement tips.
    The reentry health classes that we took were taught by a 
culinary department officer who had no expertise or information 
on reproductive health, mental health, or substance abuse 
options post-release. He had, however, played professional 
baseball for a brief time, and, hence, his authority on the 
health topic.
    Many of Danbury's policies were questionable, but it was 
relatively close to home for most of the women who were serving 
time there. Families could visit. Children could see their 
mothers, many of whom were raising their kids on their own 
before being sent to prison.
    Yet, the BOP disregarded this when it chose to convert 
Danbury FCI to a men's facility in 2013. This sent women beyond 
the BOP's stated goal of no more than 500 miles from home, and 
it has also deprived many of them of programming that male 
prisoners enjoy, such as UNICOR employment, which is very 
important, or the residential drug and alcohol treatment 
program, which not only is one of the most effective programs 
the BOP has, but also is one of the only ways to earn a 
sentence reduction in the Bureau.
    It is worth noting that the desire to empty that prison of 
women caused the Bureau of Prisons to examine prisoners' 
sentences and exercise its discretion granted by the Second 
Chance Act, signed into law in 2008 by President Bush. Hundreds 
of women were reassigned to complete their sentences in halfway 
houses or even in home confinement. And while briefly exercised 
in the case of Danbury FCI, the BOP has not used its authority 
under the Act to safely reduce the Federal prison population 
and return as many prisoners as possible to their communities.
    The BOP should place all eligible prisoners in halfway 
houses or home confinement at the earliest possible dates and 
should use compassionate release and sentence reduction 
programs, and this would help relieve the persistent 
overcrowding and keep staff and prisoners safer while reducing 
costs.
    Finally, the BOP must be led by individuals who value the 
role of communities and families in rehabilitation and 
understand the particular needs of women. We appreciate the 
service of Director Samuels, and he leaves at the end of this 
year. He should be replaced by a leader who is committed to 
enacting these values into policy. I urge the administration to 
look outside of the existing Bureau leadership for strong 
candidates who will make the BOP a model system driven by 
innovation and creativity.
    I close with the words of the legendary reformer and warden 
of Sing-Sing Prison, Thomas Mott Osborne, who famously asked, 
``Shall our prisons be scrap heaps or human repair shops?'' 
Today, with the biggest prison population in human history here 
in the United States, we must insist on a different answer to 
this question.
    Thank you.
    Chairman Johnson. Thank you, Ms. Kerman.
    Our next witness is Jerome Dillard. Mr. Dillard is the Jail 
Reentry Coordinator for Dane County, Wisconsin. He also served 
as the Director of Voices Beyond Bars, a group aimed at helping 
former inmates transition in the community by offering 
employment and computer classes. And, Mr. Dillard, again, I 
just want to thank you for traveling here from Wisconsin for 
your testimony. Please.

   TESTIMONY OF JEROME DILLARD,\1\ REENTRY COORDINATOR, DANE 
                       COUNTY, WISCONSIN

    Mr. Dillard. Thank you, Senator Johnson. In opening, I want 
to thank this Committee for having me. I want to thank you, 
Senator Johnson, and my other Senator from Wisconsin, Tammy 
Baldwin, for having me sit before you today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dillard appears in the Appendix 
on page 104.
---------------------------------------------------------------------------
    I sit here as a formerly incarcerated citizen who served 
time in both Federal and State prison systems. My crimes were 
non-violent, driven by a long history of drug addiction.
    While doing time in prison, I witnessed a system that was 
ballooning with predominately young African Americans who were 
serving long prison sentences--10, 20, 30 years--for drug 
crimes. This was troubling to me, seeing so many young men 
losing the prime of their lives to the criminal justice system. 
It was while doing time, I made a strong determination that I 
will do all I can to stay out of our prison system.
    I have been out roughly 19 years now and I have had the 
opportunity to share my own journey of recovery at correctional 
centers, educational institutions, conferences, and in the 
community, giving my personal account on how peer support 
directly aided in the success of my recovery with regards to 
substance abuse and mental health.
    We often do not think of the formerly incarcerated citizens 
as assets in the work being done to address the issues of 
incarceration. The power of peer-led groups and organizations 
provides so many essentials needed for the successful reentry 
of individuals returning to our communities. An in-house prison 
support network of this type would be helpful for the process 
of rehabilitation. Some of the barriers to creating this sense 
of community are opposition from the Bureau of Prisons and the 
State prisons staff with fostering that ``us'' and ``them'' 
mentality. Real cultural competency training would be a value 
in all prison systems.
    I want to say, in the work that I do, I realize that the 
barriers are tremendous. Individuals returning to the community 
from State and Federal prisons are often faced with huge 
amounts of debt--child support, restitution, supervision fees, 
and on and 
on--real barriers to individuals who are oftentimes subjected 
to the lower-paying jobs that are available in our communities.
    I was given an opportunity to work in a mental health 
Alcohol and Other Drug Abuse (AODA) prison in our State. This 
is a unique facility that is invaluable because they provided 
mental health and trauma-informed care on an individualized 
basis. What I witnessed there in the programming that went on 
there, I cannot say enough about, because traumas are so 
prominent with this population.
    As I talked to these men, many--and often I asked, how many 
men had their fathers in their lives, and the majority of the 
times, these individuals would say, my father was in prison, or 
I do not know my father, and I was raised by the streets. These 
are some of the traumas. Even fatherlessness is a trauma that 
usually goes unaddressed. And for those in our inner cities, 
they are humongous. They are huge.
    In the time that I have, I really cannot elaborate on many 
of the things that I would like to say, but I am going to say 
this in closing. In working with our incarcerated and formerly 
incarcerated citizens over a decade now, I am beginning to see 
a shift in confronting mass incarceration. It is an issue that 
both political parties agree on, that America's addiction to 
mass incarceration is not working. It is costly. It does not 
restore people. And, I personally feel that the climate is 
right and the ground is fertile for real criminal justice 
reform.
    The modern War on Drugs produced an overall prison 
population that remains unprecedented in world history. At the 
Federal level, the growth in the incarceration rate has been 
even greater and more sustained than in the States.
    I am encouraged by some of the initiatives that are taking 
place on the local level in many States and counties. In my 
county, we are working to address the racial disparities and 
reduce the number of those incarcerated at all levels of the 
criminal justice system. And, great works are being done 
addressing these problems, and I feel that addressing these 
problems will require far more than tinkering with the 
sentencing policies of non-violent offenders or revamping 
prison programs.
    To achieve a reasonable level of incarceration, we will 
need to substantially reduce both the numbers of people 
admitted to prison and the length of their sentences. In making 
a suggestion, I would like to say to the BOP to continue to 
solicit feedback from people who are serving time so they can 
craft programming that is to the prison population. The BOP 
programming needs to match the labor market data about high-
growth industries. It also needs to be specific to the regions.
    And, last of all, the BOP needs to advocate to Congress for 
laws that allow more merit time, early release, and incentives 
for good behavior or programming.
    Thank you.
    Chairman Johnson. Thank you, Mr. Dillard.
    Our next witness is Udi Ofer. Mr. Ofer is the Executive 
Director of the American Civil Liberties Union (ACLU) in New 
Jersey. Through his work at the ACLU, he has worked on the 
State level to form a blueprint on how to reduce the prison 
population in New Jersey. He worked closely with Governor Chris 
Christie to pass bail reform legislation which takes effect in 
2017 and is estimated to reduce the prison population in New 
Jersey by about 8,500 inmates. Mr. Ofer.

 TESTIMONY OF UDI OFER,\1\ EXECUTIVE DIRECTOR, AMERICAN CIVIL 
                 LIBERTIES UNION OF NEW JERSEY

    Mr. Ofer. Thank you, Chairman Johnson, Ranking Member 
Carper, and Members of the Committee. My name is Udi Ofer and I 
am the Executive Director of the American Civil Liberties Union 
of New Jersey, and it is my honor and privilege to be here 
today on behalf of the ACLU and our more than one million 
supporters living across the United States, including in New 
Jersey.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Ofer appears in the Appendix on 
page 108.
---------------------------------------------------------------------------
    Today's hearing comes at a critical moment in our Nation's 
history, when there is a rare opportunity to take bold action 
on criminal justice reform. Republicans and Democrats alike are 
taking a second look at our Nation's criminal justice system, 
and Republicans and Democrats alike are becoming much more 
pragmatic and much less ideological in their approach to 
criminal justice.
    Following decades of punitive policies that have sent 
millions to prison and devastated communities, particularly 
low-income communities of color, Americans are now realizing 
that our Nation's prisons and jails have grown too big, and 
that all too often, the people who end up imprisoned really 
suffer from drug addiction or mental illness and should not be 
incarcerated in the first place.
    We all know the story of the growth of our Nation's 
incarcerated population. Our Nation's jails and prisons hold 
almost 2.3 million people on any given day. The Federal prison 
population has increased from 25,000 prisoners in 1980 to more 
than 207,000 today, and all of this comes at an annual cost to 
taxpayers of tens of billions of dollars.
    But, the costs have far more severe consequences than 
simply the fiscal expenses necessary to incarcerate 25 percent 
of the world's prisoners in a country with 5 percent of the 
world's population. The true costs are human lives, and 
particularly generations of young black and Latino men who 
serve long prison sentences and are lost to their families and 
to their communities. And, the fact is that African Americans 
and Latinos are disproportionately engulfed in our broken 
criminal justice system.
    So, it is clearly time for a change. We are at a 
crossroads, as Americans recognize the need to reform both our 
Federal and State criminal justice systems. So, with this in 
mind, I come before you today to urge you to seize this 
opportunity to reform prison practices, reduce the incarcerated 
population, and create a system that is smarter, a system that 
is fairer, and a system that is more cost effective.
    And at the top of any reforms of Federal prison practices 
must be the issue of solitary confinement. Approximately 5 
percent of Federal prisoners are in solitary confinement. That 
means that on any given date, 11,000 people in Federal 
prisons--11,000 
people--are confined to a six-by-nine cell and deprived of 
basic human contact, with little to no natural light and 
minimal, if any, constructive activity for 22 to 24 hours a 
day. In some Federal facilities, the average time that a 
prisoner sits in continuous solitary confinement is 4 years.
    You need to look no further than the front page of today's 
Science section of the New York Times--and it is the Science 
section, not the Politics section--to get a better 
understanding of the mental and physical consequences of long-
term solitary confinement.
    And, according to a recent independent review of the 
Federal Prison System solitary practices, there are major 
problems. Federal prisons send thousands of seriously mentally 
ill individuals into solitary confinement, people who should be 
receiving treatment, not sitting in ``the hole,'' and Federal 
prisons use solitary on close to 1,400 people who are there for 
protective custody but instead are subjected to virtually the 
same conditions as prisoners who are in solitary for 
punishment.
    So, what can we do about this? Well, there are many small 
yet important steps that the Bureau can take today and that are 
outlined in the independent review. Yet, the truth is, if all 
that we take today are small steps, then we will have lost this 
historic moment for bold change. Now is the time for historic 
change. Solitary confinement has no place in American prisons. 
Physical separation may sometimes be necessary for safety and 
for security, but isolation is not.
    Therefore, we call on the Bureau of Prisons and we call on 
the Congress to resolve this issue once and for all. First, it 
is time to abolish the use of solitary confinement for persons 
under the age of 18 and for persons with mental illness. 
Senators Cory Booker and Rand Paul have already introduced 
legislation, the REDEEM Act, which would prohibit the use of 
solitary confinement on juveniles and we fully support this 
legislation.
    Second, for all other prisoners, the Bureau should abolish 
periods of solitary confinement lasting longer than 15 days, 
period. We believe that implementing these recommendations will 
lead to a smarter and more humane system and will lead to a 
decrease in the Federal prison population by reducing 
recidivism rates.
    Finally, a couple of quick words about New Jersey. Given 
the focus of this hearing on BOP practices, the lessons from 
New Jersey are not directly applicable, but there are some 
important lessons worth mentioning. New Jersey is not a perfect 
model. We have terrible solitary confinement practices, but 
there are some things that we have done well.
    In 1999, New Jersey's incarcerated population peaked at 
more than 30,000. Today, it is at about 21,000, a 30 percent 
reduction in a decade-and-a-half. How did we achieve it? We 
achieved it through numerous policies, with the biggest ones 
being changing our harsh mandatory minimum sentences for drug 
offenses and a decrease in the number of parolees returned to 
prison for technical violations. And as mentioned by Senator 
Johnson, we have recently had a major victory in a bipartisan 
manner, working with Governor Christie, to overhaul our State's 
bail system, which we believe will lead to thousands of fewer 
people sitting in jail simply because they are poor.
    So, look, nationwide, the bipartisan commitment to criminal 
justice reform is as strong as it will ever be, so the ACLU 
urges the Congress to take bold action to adopt our 
recommendations, which would help to increase fairness and 
justice at every stage in the system.
    Thank you.
    Chairman Johnson. Thank you, Mr. Ofer.
    I do want to stress, you have mentioned the word 
``bipartisan'' a number of times, and this is true. Some of the 
folks in this Committee have been describing problems and look 
for the areas of agreement, and this is something I think that 
we have broad agreement on. This system is not working, as Mr. 
Dillard pointed out. It is just not working. We have to take a 
look at the facts and admit that harsh and stark reality.
    Ms. Kerman, you obviously have a pretty unique story here. 
You did not spend much time in your testimony--maybe people 
more tied into pop culture fully understand--but if you could 
just quickly describe what you were put in prison for, and at 
the tail end, I would also like you to tell me, what do you 
think your punishment should have been?
    Ms. Kerman. Thank you for your question, Senator Johnson. 
When I was in my early 20s, which is a very typical risk time 
for folks to be involved with crime or to commit a crime, I was 
involved with a relationship with someone involved with 
narcotics and I carried a bag of money from Chicago to Brussels 
in support of a drug trafficking enterprise.
    I voluntarily left that situation. Good sense kicked in. I 
was very fortunate. I had a college degree already. I had many 
benefits and privileges, and so I was able to return to the 
United States and to get my life back on track and to put any 
involvement in crime behind me.
    Many years passed before I was indicted in the Federal 
system, and ultimately, I was sent to prison 10 years after I 
committed my offense. I pled guilty to my crime very swiftly. I 
was very fortunate to only serve 13 months of a 15-month 
sentence.
    One of the things that was so striking to me the very first 
day that I spent in prison was that so many of the women that I 
was incarcerated with, who I would spend a great deal of time 
with, were serving much harsher sentences than I was. And as 
the days and the weeks and the months went on and I came to 
know those other women really well, it was impossible for me to 
believe that their crimes were so much more serious than mine. 
In fact, the only conclusion I could draw was that they had 
been treated much more harshly by the American criminal justice 
system than I had been treated because of socio-economic 
reasons, differences in class and, in some cases, because of 
the color of their skin.
    I left the custody of the Bureau of Prisons in 2005. I had 
2 years of supervised release, probation, which I completed 
successfully.
    When I reflect on the punishment for my crime, I certainly 
cannot protest it when I think about the harshness with which 
poor people and disproportionately poor people of color are 
treated in this country.
    It is hard, however, to believe that there was a lot of 
social benefit to the community drawn from my incarceration. It 
prevented no new crimes. I think, particularly when we consider 
the punishments that we have meted out for drug offenses, we 
have to reflect on the enactment of these mandatory minimum 
drug sentencing laws, generally in the mid-1980s. At that time, 
I think that those laws were intended to curb substance abuse 
and addiction and some of the crimes that grow out of substance 
abuse and addiction.
    Today, many decades after we passed those laws, we have put 
millions and millions of Americans in prison and saddled them 
with felony convictions, and today, illegal narcotics are 
cheaper, they are more potent, and they are more easily 
available than when we put mandatory minimum sentencing laws on 
the books and incarcerated all those people. I think we can 
only draw the conclusion that in terms of curbing substance 
abuse and addiction, that those laws are a failure and that 
locking people up for drug offenses, particularly low-level 
non-violent drug offenses, is a huge waste of time and money.
    Chairman Johnson. So, let me go back to what I wanted you 
to answer, the final question, though. I agree, it is not 
working.
    Ms. Kerman. Yes.
    Chairman Johnson. I think there are two reasons for prison, 
punishment and deterrence.
    Ms. Kerman. Yes.
    Chairman Johnson. So, what type of punishment is 
appropriate and that would deter people from, for example, 
trafficking drugs to young people, which is pretty damaging for 
society? I mean, what do you think would be the alternative? 
Have you given that any thought?
    Ms. Kerman. I think that a very appropriate part of my 
punishment, if it was not confinement in a prison, would have 
been a lengthy term of community service working with people 
who are addicted to drugs and with families that are suffering 
from the ravages of addiction. What I experienced while I was 
incarcerated was very intense close friendships with women 
whose lives had been devastated by substance abuse and 
addiction, and that really brought home to me the harm of my 
own actions, and I think that that is one of the most 
appropriate ways to deal with those kinds of harms.
    Chairman Johnson. Good answer.
    And, very briefly, because I want to get to Mr. Dillard, as 
well, the other women that were in prison, I know you do not 
have the statistics on it, but in general, were they there for 
also just basically drug crime?
    Ms. Kerman. Oh, in particular----
    Chairman Johnson. The vast majority?
    Ms. Kerman. In both State and Federal systems, but 
overwhelmingly in the Federal system, women are incarcerated 
for non-violent drug offenses and for property crimes. But in 
the Federal system, I mean, I think if any member of this 
Committee had the opportunity to meet the hundreds of women 
that I did time with, you would probably walk away from getting 
to know those women with a deep feeling that their confinement 
in a prison cell or a prison facility was just a colossal waste 
and not an appropriate way of intervening in the things that 
put them into the criminal justice system.
    Chairman Johnson. Thank you.
    Mr. Dillard, obviously, we met in discussions about the 
difficulty of reentering society after you have served your 
time. Talk about the challenges. I mean, you were talking about 
the huge debt levels. You are sitting in prison and your child 
support just continues to build, and then you get out, it is 
very difficult to find a job, and one of the things I am 
working with Senator Booker on is a ``ban the box'' for Federal 
employees to serve as an example, so hopefully something like 
that would work to give people the opportunity to get a job.
    But, even if you get a job, a lot of these are entry level. 
They do not pay a whole lot. And, yet, we expect people who 
just get out of prison to all of a sudden start paying off 
those debts. Describe what happens when they are unable to.
    Mr. Dillard. Well, the fact is, when you are faced with 
these barriers--and I, too, came home faced with many 
barriers--the fact is, I had support, I had individuals who 
kept me encouraged, and I had someone to give me analogy, and 
that was putting a little bit behind you at a time.
    I was fortunate to be able to obtain a living wage 
employment about a year-and-a-half after being out. That was 
helpful, because after 13 years, I finally got a tax return. 
And that analogy of putting that debt behind you a little bit 
at a time is something that I teach to young men today.
    The fact is, many of our young people have ties to the 
criminal justice system and there is so much hopelessness that 
comes with being tied to the criminal justice system that, 
often, they feel that there is no place for them in the 
workforce. Application after application, turn down after turn 
down, because, in many instances, of your criminal convictions. 
Individuals lapse into hopelessness, and from there, addiction 
can raise its ugly head, or hustling, or just becoming part of 
the norm in many of the communities that have had to result to 
these things.
    Chairman Johnson. Again, in our meetings, one of the 
individuals we were talking with spoke that not paying child 
support ends up being a parole violation----
    Mr. Dillard. Yes.
    Chairman Johnson [continuing]. Which lands you right back 
in jail, correct, which costs us $33,000 for a male prisoner, 
and, I think, Ms. Kerman, is it not about $50,000 for a female 
prisoner?
    Ms. Kerman. Yes.
    Mr. Dillard. Yes.
    Chairman Johnson. So, again, it is these enormous 
challenges just trying to reintegrate into society, get a job, 
and then when you are unable to pay off your child support, 
which, again, we all want people to be responsible and pay for 
their children, but then you land right back in jail. Is that 
what I heard. Is that basically true?
    Mr. Dillard. Well, in some cases. But, the fact is, child 
support continues to accumulate even while you are doing time. 
I had a gentleman who was released from prison after 15 years, 
$60,000, $70,000 in debt with child support, along with all the 
other things that came. The only employment that he can find 
was working in a fast food restaurant at a minimum wage. And 
after taking home his second paycheck, he was, like, I cannot 
make it like this. I just cannot. Over 40 percent of his check 
was being taken before he even got it, and that is a 
discouragement, really, for him to continue working at a 
minimum wage position and not be able to pay rent or have 
transportation.
    Chairman Johnson. OK. Thank you, Mr. Dillard. I am out of 
time. Senator Carper.
    Senator Carper. The Chairman said a few minutes ago there 
are two reasons for prisons, punishment and deterrence. I would 
say there is at least one more, and that is to try to correct 
behavior so that when people come out, they will be less likely 
to recidivate and simply to commit crimes again and return to 
our prison.
    I mentioned earlier how Stan Taylor was Commissioner of 
Corrections when I was Governor for my second term, and his 
words that still ring true today, the overwhelming majority of 
people who are incarcerated are going to come out some day. 
They are not there forever. They will come back into our 
society and to our communities, and they can come out as better 
people or they can come out as better criminals.
    Senator Booker, alluded to a moral imperative that we face, 
whether people of faith or not. He alluded to Matthew 25, when 
I was hungry, when I was thirsty, when I was naked, when I was 
sick and in prison, did you come to see me? I have been in 
every prison in Delaware. We transformed Ferris School, which 
really was a juvenile prison, into a real school. And, I have 
given this matter huge amounts of time and thought over the 
time that I was there and even now.
    In the National Governors Association, we used to say--I 
would say to my cabinet when we would have cabinet meetings 
dealing with a particular issue, I would say, somebody, some 
Governor in some State has dealt with this issue. Figure out 
how to deal with it and do so successfully. We have got find 
that State, that Governor, and whoever worked on this 
particular challenge in that State.
    A lot of what we are talking about here, somebody has done 
something really good that could serve as a model. States are 
laboratories for democracy, and before we go off for the Bureau 
of Prisons just starting from scratch, we need to look around 
our country and say, well, where are some States that are doing 
some things really well?
    In our State, we changed a juvenile prison into a real 
school. In our State, we decided when we had people in prison, 
we were going to have them for a while. Why not work with them 
on their educational skills, actually create a school within 
the prisons to work with them on their drug addictions, to give 
them an opportunity, whatever faith they might be, but to 
actually exercise their faith, learn about their faith, to 
prepare for transformation, to learn skills, whether it is 
upgrading computers, whether it is building furniture, whether 
it is learning auto repair, and literally taking the whole 
fleet for the State of Delaware, the car fleet, and basically 
provide maintenance in our prison system so that people at 
least have that kind of skill when they walked out.
    What I would like to do is to ask each of you to give us 
one terrific example--it could be in a State or a local 
correctional system--one terrific example within the system, 
within the prison itself, or, frankly, without, because if we 
do not do a lot better on the early side, the early childhood 
side and so forth, we are not really going after the root 
cause. But, just give us one good example. It could be in the 
correctional system, it could be before, it could be after 
release, that you think we ought to really drill down and try 
our best to emulate. Thank you. Ms. Kerman.
    Ms. Kerman. Thank you, Senator Carper. I currently teach 
nonfiction writing in two State prisons in Ohio, and one of 
those prisons is a men's medium-security prison. It was built 
for 1,400 men. It currently houses 2,600 men. It is led by a 
young warden who was trained as a social worker at Ohio State 
University (OSU). He does things differently than any prison I 
have ever set foot inside.
    The prison has more lifers than any other prison in the 
State of Ohio. It is one of two prisons with the lowest 
violence rate in that prison. So, that is a big change over 
time in that facility. That warden and his predecessors have 
done a great job at making that a much safer prison, and that 
warden has--and his staff have a tremendous amount of 
rehabilitative programming of every sort, whether it is 
vocational, educational, spiritual.
    One of the first programs that was ever put in place there 
back in the 1990s was an interfaith dorm where prisoners of 
different faiths would come and live in that dorm for one year, 
do a special curriculum, learn how to deal with each other and 
their differences, and then go back out into general population 
as change agents.
    That prison is a really interesting place and that warden's 
philosophy and the philosophy of all of his staff--because one 
man cannot do it all, all of his staff need to be on board for 
him to do that--is really inspirational, I think.
    I want to make a note on some of the results that that 
prison gets, back to Udi's testimony about solitary 
confinement.
    Senator Carper. Ms. Kerman----
    Ms. Kerman. Yes?
    Senator Carper. I would like to listen to you for the rest 
of the morning, but I only have two more minutes, so I am going 
to ask you to just hold it right there if you will----
    Ms. Kerman. OK.
    Senator Carper [continuing]. And we will, hopefully, have a 
second round and we will come back and finish it.
    Ms. Kerman. OK.
    Senator Carper. I would note this. I am an Ohio State 
graduate, undergrad, and one of the things that attracted me to 
the 
KEY/Crest Program, which we instituted in our adult prison 
system at Gander Hill Prison that Barry McCaffrey, the Nation's 
Drug Czar, came to see, the guy who developed, helped us 
develop that and implement it in Delaware, was Jim Inciardi 
from Ohio State who literally came out of Columbus, Ohio, and, 
frankly, worked pretty well.
    Mr. Dillard, same question. Give us just one great example. 
Piper has given us one. Give us one, as well.
    Mr. Dillard. Well, I personally feel that the work is on 
the offenders themselves, and it was a lifer who really made a 
difference in my life, who spoke life into me. And throughout 
my prison sentence, I realized how the older inmates really 
worked with and tried to encourage the younger ones. I still 
feel that you cannot leave formerly incarcerated citizens out 
of the equation. Mr. Ofer.
    Mr. Ofer. So, if I may, I am going to give two quick 
examples.
    Senator Carper. Go ahead.
    Mr. Ofer. One is solitary confinement, since that was the 
focus of my testimony. There are examples of States that have 
dramatically reduced solitary confinement without causing risk 
to staff and to inmates, and a good example is Colorado. In 
2011, Colorado placed in solitary confinement about 7 percent 
of its incarcerated population. Today, it is about one percent 
of its incarcerated population. We have seen a dramatic 
decrease in the use of solitary by banning the use of solitary 
against some vulnerable populations, like people with serious 
mental illness, and by restricting the number of days that you 
could be sent. So, that is one.
    The second example is bail reform, and what we have done in 
New Jersey and what other States and some municipalities are 
looking at, in New Jersey, we had 10,000 people sit in jail 
awaiting their trial because they could not afford a few 
thousand dollars in bail. We have completely revamped that 
system, where now your bail and whether you are going to be 
released pre-trial or not is determined by your risk assessment 
and not by whether you are poor or rich.
    We believe that that change in and of itself will lead to 
about three-quarters of the 10,000, so 7,000 to 8,000 fewer 
people sitting in jail. Before this reform, the average time 
that a person sat in jail awaiting their trial was 314 days. 
These are people that are presumed innocent until proven guilty 
and they were being treated like guilty, and this is a 
phenomenon all over the country. And, this is one of the ways 
that we can dramatically reduce our jail population in the 
United States.
    Senator Carper. Let me just close by saying this. Senator 
Booker and I talked about the moral imperative that we have in 
this country, to look out for the least of these. We also have 
a fiscal imperative. And while our budget deficit is down a 
lot, it is still substantial, and we have a fiscal imperative 
to meet the moral imperative in a fiscally responsible way, 
hence the need to find out what is working, do more of that, 
find out what is not working and do less of that. Thank you so 
much.
    Chairman Johnson. Thank you, Senator Carper.
    Before I turn it over to Senator Booker, because you 
mentioned my name and did not quite get it right, I said that 
we jail people to punish and to deter, but then I also fully 
mentioned the mission statement of the Bureau of Prisons, to 
ensure that offenders are actively participating in programs 
that will assist them in becoming law-abiding citizens when 
they return to our communities, and, of course, I highlighted 
Ms. Kerman's testimony where she quoted Thomas Mott Osborne, 
``Shall our prisons be scrapheaps or human repair shops?'' I 
strongly hope that our goal is that they are human repair 
shops.
    So, with that, Senator Booker.
    Senator Booker. Thank you, Mr. Chairman.
    Udi, let us jump in real quick. So, solitary confinement. 
Can you please describe this, because as I have had these 
conversations with friends and others, people often think that 
solitary confinement is a result of someone having done 
something wrong in prison, and why is solitary confinement so 
commonplace? Is it because prisoners are doing things wrong in 
prison?
    Mr. Ofer. Well, we have seen as a Nation a dramatic 
increase in the use and reliance on solitary over the last 
couple of decades. We do not have exact reliable scientific 
data since we actually do a terrible job as a country tracking 
how many people are placed in solitary, but there is consensus 
that its use has increased dramatically, particularly in 
response to overcrowding, and where prison officials are 
overwhelmed and their quick reaction is to send people to the 
hole.
    So, we have examples from New Jersey, we have examples from 
around the country of people being sent to solitary for things 
like talking back. I will give you a New Jersey example, out of 
New Jersey State Prison in Trenton, where an inmate by the name 
of Sean Washington, in 2013, he was a clerk at the library and 
he wanted to leave the library to go bring some legal papers to 
one of the other inmates. Yet, a corrections officer said, you 
cannot leave, and the facts here are a bit disputed, but the 
worst facts, the facts that the State claims, is that Mr. 
Washington then said, ``Mother f-er'' to the correction 
officer, ``do not tell me what to do.'' That is the worst 
facts. What was his punishment? Ninety days in solitary 
confinement.
    That is a real example. Those are examples that we see all 
across the Nation.
    Senator Booker. I am just wondering, just for time, so we 
know that people are being sent to solitary for many different 
reasons.
    Mr. Ofer. Right.
    Senator Booker. Some of them have to do with administrative 
issues and the like. Does it work in terms of in somehow 
affecting the behavior of prisoners? Is there any productive 
value in the Bureau of Prisons?
    Mr. Ofer. Well, I am going to push back for a second on 
some language that you used, in that some people are sent to 
solitary for administrative reasons. That is a loaded term, 
because the Bureau of Prisons and other prisons commonly call 
solitary administrative segregation----
    Senator Booker. Right.
    Mr. Ofer [continuing]. And it sounds really harmless, but 
in effect, it is solitary and people are sent there for really 
minor reasons, and some reasons are for protective custody, 
like I mentioned in my testimony.
    For example, the lesbian, gay, bisexual and transgender 
(LGBT) community, which faces disproportionate harassment from 
other inmates in prisons, a lot of times, they will be sent to 
involuntary protective custody to protect them from inmate 
violence, yet they are being punished. We see this happening 
all the time.
    In the Bureau of Prisons, for example, according--oh, you 
asked what was--does it actually work? So, recently, there was 
an independent review that was released to the public in 
February of this year by the Center for Naval Analyses (CNA) 
that looked at solitary practices in our Federal prisons and it 
looked to this question. Does inmate behavior change following 
solitary? And their response was, absolutely no.
    Senator Booker. I would just like to pause there. Can we 
have that report put into the record\1\ for this hearing.
---------------------------------------------------------------------------
    \1\ The report referenced by Mr. Ofer appears in the Appendix on 
page 144.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection.
    Senator Booker. And then I want to just also say that not 
only LGBT, lesbian and gay prisoners, but, obviously 
transgender----
    Mr. Ofer. Transgender, absolutely. But, let me actually say 
what the CNA report actually found, because it is very 
important. It looked at an inmate's disciplinary record 12 
months before being sent into solitary and 12 months after 
coming out of solitary, and it found virtually no change 
whatsoever.
    Senator Booker. So, let us get to your article you held up 
today, the consensus upon medical experts. What is the damage, 
the trauma, the effect on an individual to be in solitary 
confinement, you said a shockingly, often on average, of 4 
years? I have talked to numerous inmates who have experienced 
that length or more. What is the damage done to someone in 
general, and would you also include in that someone who already 
has a mental health challenge?
    Mr. Ofer. First of all, when I think of this issue, and to 
use an example that is contemporary, I think of it similar to 
climate change, in the sense of there are certain people that 
just deny the science. Yet, within the scientific community, 
there is consensus. There is consensus about climate change and 
there seems to be consensus also about solitary confinement.
    Senator Booker. Please do not lose this Committee by 
talking about climate change. [Laughter.]
    Let us stick to the bipartisan consensus here. [Laughter.]
    Mr. Ofer. But, what I mean is that there is consensus in 
the scientific community about the harms of solitary 
confinement, and there are really two kinds of harms. One is 
that it exacerbates preexisting conditions, so mental illness 
that existed before is exacerbated and becomes worse.
    And, second, it also produces mental illness and also 
physical illness, things like anxiety, depression, 
hypersensitivity to stimuli, bipolar disorder, there have been 
documentations of that. The list is long, and I am happy to 
provide the Committee with citations to every----
    Senator Booker. I think that would be helpful if you would 
provide more citations.
    Mr. Ofer. We will do that.
    Senator Booker. I want to switch. First of all, I just want 
to say, both to Mr. Dillard and Ms. Kerman, it is extraordinary 
that you are here with your testimony about what the experience 
of actual people who have been behind bars, and that is 
extraordinary.
    And, Ms. Kerman, I would like to just, in the little bit of 
time that I have left, just drill down on something that is 
often not talked about, but what is happening as a result of 
overcrowding. We saw this in Danbury when it was converted into 
a low-security men's facility. You were close to your family, 
and I am really wondering, what impact does being in prison in 
close proximity to loved ones have on an inmate, and what 
impact would gender-specific programming have on a woman's 
ability to successfully reenter. If you could, in the one 
minute I have left, just hit on both of those issues really 
briefly.
    Ms. Kerman. OK. Proximity to home, family, and community is 
overwhelmingly important for both men and women who are 
confined to prison or jail. The opportunity to----
    Senator Booker. And, let us just be clear. The majority of 
women in prison have children, and the majority of imprisoned 
people, period, are the No. 1 breadwinners for the family 
before they are incarcerated.
    Ms. Kerman. Absolutely. The overwhelming number of women in 
prison are mothers, and most of those mothers are the mothers 
of minor children, kids under the age of 18, who experience 
sort of a seismic impact when their mothers are incarcerated 
because a lot of those moms are single moms who have primary 
responsibility for their kids.
    So, the opportunity to touch your children, to hold, for 
your children to be reassured that their mother or their parent 
is OK is incredibly important both to parent and child. The 
opportunity to see your own parents or family members, to 
maintain ties to the community, broadly considered, to which 
you will almost inevitably return--Senator Johnson is 
absolutely correct. The vast majority of people who are in 
prison are coming home from prison.
    So, those lifelines to the outside community are 
incredibly--we cannot overstate how important they are to 
public safety, to people's safe and successful return home to 
the community, because when prison--when correctional systems, 
whether it is the BOP or otherwise, cut those lifelines by 
making visits very difficult, by placing people very far from 
their families, or by making prisons inaccessible in other 
ways, by making phone calls exorbitantly expensive, or by--many 
jails have ``no contact'' visits through glass, which is a huge 
disincentive to have a visit--those lifelines are cut and the 
person who is incarcerated is much less likely to have both the 
family support, the safe and stable housing, the access to 
networks which might help them gain employment, all of which 
are primary concerns for successful reentry. And that is true 
whether you are talking about men or whether you are talking 
about women.
    When we are talking about female prisoners, just very 
quickly and briefly, we know that the three things that drive 
women's involvement in crime in their incarceration are 
substance abuse, mental illness, and, again, that overwhelming 
experience of violence, either sexual violence or physical 
violence. Eighty percent or more of women and girls in the 
system report that happening to them before they were 
incarcerated.
    So, the problem with incarceration--prisons and jails are 
very harsh places by design--is that for prisoners who have 
experienced very significant trauma, like rape, childhood 
sexual abuse, domestic violence, many of the commonplace 
correctional practices are very reminiscent of some of those 
abuses. And, so, that creates a serious challenge in terms of 
regular engagement with female prisoners in terms of their 
rehabilitation and in terms of their, again, ability to return 
home safely.
    Senator Booker. In deference to my colleagues, I am over 
time, but thank you for that substantive----
    Ms. Kerman. Absolutely. Thank you.
    Chairman Johnson. Thank you, Senator Booker.
    And, by the way, when Mr. Ofer delved into climate change, 
he did not lose the bipartisan agreement. [Laughter.]
    I think we, by and large, agree there has been climate 
change, always has been, always will. Senator Heitkamp.
    Senator Booker. And vaccines work, is that correct? 
[Laughter.]
    Chairman Johnson. Yes, they do.
    Senator Booker. Yes, they do.
    Senator Heitkamp. Thank you, Mr. Chairman.
    At the risk of being embroiled in that side discussion, I 
was the Attorney General in North Dakota, spent a lot of time--
actually, most of the drug task forces were under my 
jurisdiction and we ran a lot of those, and it was at a time 
when there was a growing concern in 1992 with the drug problem 
and with more and more violent crime. And as a result, we saw 
incarceration rates really skyrocket because of desperation.
    And, I will tell you this. It has been my experience that 
we constantly treat the symptoms, but never treat the disease, 
and that is really where we are today, talking about how do we 
treat the symptoms and not how do we treat the disease.
    I will tell you a story about a very wise man. I did a 
juvenile justice project, and one where we made it a little 
easier to transfer kids into the adult system. But, I traveled 
around the State of North Dakota with a prison warden by the 
name of Winston Satran. He was a very wise guy, and at the time 
in North Dakota, you could actually interview every prisoner 
who came into the prison system, and he would sit down and he 
would say, tell me about your life. And as they talked, they 
would say, my parents were divorced at 11 and I went to live 
with my grandma, and he would write ``11'' in their prison 
file, because in his opinion, that prisoner was 11 years old 
emotionally.
    And, that is where we get stuck, because a lot of this is 
related to trauma. A lot of this is related to not 
understanding trauma. And we exacerbate it by not only treating 
the trauma, but engaging in behaviors that further the trauma, 
whether it is isolation from family, whether it is isolation 
from any human contact at all.
    And, so, let us be honest about the task that this society 
has imposed on the Bureau of Prisons. None of this should be 
any judgment on the Bureau of Prisons. We have given them an 
impossible task. They have to take in--and prison crowding is 
part of that. They have to maintain some level of security. And 
they are as desperate for solutions as what they can be. But, 
we are here talking about things that are way downstream, and 
we are not here talking about things that are upstream.
    And, so, the juvenile justice system is led, really, by a 
lot of very enlightened people at the Department of Justice, 
has really begun a transformation into trauma-informed and 
trauma-based therapies, looking at what can we do to treat 
trauma, how can we basically prevent a lot of abuse, and a lot 
of abuse is self-medication. A lot of addiction, it is 
chemical, I get it. I get that that is maybe the old model. 
But, a lot of it is self-medicating for the trauma that has 
been experienced in people's lives.
    And, so, with all of that, I would like to know how we 
could design a system of prevention so that we do not see more 
people. What would you all, in your experience, like to see in 
communities that would prevent the kinds of outcomes that we 
are seeing right now in the Bureau of Prisons? And we can start 
with you, Ms. Kerman.
    Ms. Kerman. I think it seems that there is a tremendous 
amount of recognition--thank you for the question, Senator 
Heitkamp--that substance abuse and mental health problems, 
including full-blown mental illness, but also the everyday 
demons that many people suffer at some point in their lives, 
contribute to people's bad choices and breaking the law. And, 
so, a significant commitment to handle those health problems in 
the public health system as often as possible rather than 
criminal justice system----
    Senator Heitkamp. Can I ask just quickly, of the women that 
you worked with and were incarcerated with, how many of them 
were given a choice of drug court or some kind of intermediate 
kind of intervention?
    Ms. Kerman. Yes, that is very rare in the Federal system. 
That is much more common in State systems or county systems of 
justice. There is a program in New York called Justice Home, 
where women who are facing at least a year of incarceration, 
when their district attorney and their judge agree, are able to 
enter this program called Justice Home. They stay at home, 
generally with their children, and are, face a set of 
accountability measures, but also get the mental health 
interventions or the substance abuse interventions, the 
parenting classes, the vocational training, whatever is 
specific to their case that is needed for them to get better 
outcomes.
    In New York, it costs about $60,000 a year to incarcerate 
somebody. That program costs about $17,000 a year. If we threw 
in the cost of foster care for a family with two children, the 
costs would mount to $129,000 a year.
    Senator Heitkamp. Thank you.
    Ms. Kerman. So, yes. That is a good example.
    Senator Heitkamp. Mr. Dillard.
    Mr. Dillard. Thank you for your observations, Senator 
Heitkamp. Trauma-informed care is truly something that is 
needed if we are going to be preventive. All I can use myself 
as an example of someone who had traumas at the age of 12, 13 
years old, who walked around with them for 35 years, never 
addressed, and I am just bearing them. When I was diagnosed, I 
had been severely depressed most of my life, one reason that I 
self-medicated with illegal drugs. Had I been diagnosed, maybe 
I could have been given legal drugs and avoided the criminal 
justice system.
    The fact is, we never look at the cause. We just look at 
the effect. And many of these young men and women who I 
encounter in the work that I do today have tremendous traumas, 
and we are working as a peer organization to help them work 
through that to avoid walking around a hurting people, because 
we know that hurt people. And, if we do not address those 
traumas early on, then further down the road, after recidivism, 
we are still going to be paying a much higher cost.
    Senator Heitkamp. Thank you. Mr. Ofer.
    Mr. Ofer. So, I am going to give a perspective informed by 
the fact that I spend a lot of my time in Newark, New Jersey, 
which is a terrific city, and it is a city that is plagued by 
poverty, and in certain communities, there is violence. And, 
what I see in Newark, and really a lot of urban areas across 
New Jersey and even across the country, is that the only agency 
that is available in that municipality to address social needs, 
or at least the agency that is primarily available, is the 
police department. And, to me, that is the root cause of the 
problem.
    You have well-meaning police officers, you have well-
meaning city officials that literally have no one else to go to 
if there is, let us say, some minor misbehavior happening on 
the street that is minor, but that should not be treated by the 
criminal justice system.
    And, I will criticize also diversion programs. While they 
are certainly better than sending someone directly to jail or 
prison, my reaction is, this person should not have been 
entangled with the criminal justice system in the first place. 
They should not have been arrested and then diverted to 
alternative programs. We need to buildup the resources of 
municipalities, of States, to have other agencies to go to when 
they are interacting with people with mental illness or with 
drug addiction problems.
    Senator Heitkamp. And, if I could just close with a 
comment, the stigmatization of that label is something you will 
carry the rest of your life.
    Mr. Ofer. Yes.
    Senator Heitkamp. It will prevent you from getting student 
loans. It will prevent you from getting a job. And, so it is 
with a great deal of care that we should take that next step, 
because we are, in fact, relegating that person to a certain 
quality of life for the rest of their life, especially given 
the age of the Internet, where we can find out anything about 
anyone.
    And, so, I just wanted to make a broader point, that we are 
here to talk about what we are going to do with high 
incarceration rates, but we cannot look at this problem without 
looking at the broad scope of services that are provided and 
how we can work more effectively for prevention.
    Chairman Johnson. Thank you, Senator Heitkamp. Senator 
Ayotte.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. Thank you. I want to thank all of you for 
being here.
    I think, like my colleague, Senator Heitkamp, we both were 
Attorneys General in our State before we came here to the 
Senate, and one of the things that I had worked on as an AG was 
reentry programs. And, I am a strong supporter of the Second 
Chance Act and supporting its reauthorization, but saw it from 
an Attorney General context where even people who were 
incarcerated for serious crimes, that we did not give them any 
path for success going forward, because they came out, if they 
had a substance abuse problem, the underlying issue was never 
dealt with. If there were mental health factors, that was not 
dealt with. No job. No place to live. If you put yourself in 
those shoes and you are that person and you are put out on the 
street, then, I dare say that all of us around this dais 
probably would not be able to put it back together.
    So, I wanted to get your thoughts. Dr. Dillard, I saw that 
your focus is really, as I understand what you are working on, 
it would be some form of reentry program, and we saw it in our 
State get some momentum and then sort of fizzle and wanted to 
get your thoughts on reentry-type programs and what more we 
could do to make them more effective to try to end this cycle 
and to get people on to productive lives. And then I have some 
other followup questions, but I would appreciate it.
    Mr. Dillard. Well, I think reentry is a crucial point if 
there is planning done and individuals are giving different 
options. I know the Federal system, 6 months in a halfway house 
is something that I went through that was very beneficial for 
me. I just was not released to the streets, and I was able to 
obtain employment during that period and save some money to be 
able to rent a room, at least, when I was done with my Federal 
time.
    What I am seeing today, though, is young men coming out of 
our State and county systems homeless, 17, 18 years old, who 
cannot go live with their mother because they have been told, 
you cannot go there because of substance abuse connected to 
their housing. And, they are couch surfing. And, oftentimes, 
when they are couch surfing, it is probably with those who are 
not doing so well or the anti-socials that had an influence on 
them being placed in the criminal justice system in the very 
first place.
    Housing initiatives are huge. I do not have the solutions, 
but I can say that we are working on them in the region that I 
am working in. Nonprofits and faith-based organizations are 
engaging with us in providing housing at an affordable rate.
    Preparation is huge. Individuals have to identify certain 
things while in custody in order to have a paradigm shift that 
this cannot be an option. This cannot be an option.
    I had a client to tell me that committing a new crime was 
not his first choice, but it was his very last option, and I 
know the troubling times that he was in, sleeping on park 
benches, could not go to the shelter for various reasons, and 
he committed a new crime. As he told me, it was not his first 
choice, it was his very last option. And, so, the reentry 
process, along with all the barriers.
    I think mentoring from formerly incarcerated or connections 
with organizations that hire formerly incarcerated, because we 
are Ambassadors. I look at us as being those who can help them 
through those trying times and pivot points of reentry.
    Mr. Ofer. Senator, may I respond to that question very 
quickly?
    Senator Ayotte. Sure.
    Mr. Ofer. This is an oversight hearing on the Bureau of 
Prisons, and the independent review that I keep referencing to, 
and I am happy to submit my annotated copy--you will have a lot 
of highlighting--actually looked at this question of the Bureau 
of Prisons' practices on reentry programming, and here is its 
finding in one sentence. ``There is no formal Bureau-wide 
reentry preparedness program specific to restrictive housing 
and inmates in these settings have very limited access to 
reentry programming.''
    The Bureau does not do a good job in reentry programming. 
About 2,000 people a year in the Federal Bureau of Prisons 
(FBOP) go from solitary back to community. One of the things 
the study found is that many of them--they do not know the 
exact number, because the Bureau does not track it--are sent 
directly from solitary back to communities. That is a terrible 
practice that needs to stop immediately. There needs to be a 
focus on reentry programming in the Federal Bureau of Prisons.
    Senator Ayotte. Thank you.
    And, Ms. Kerman, I wanted to ask you, one of the things 
that we are seeing, and I saw this when I was AG, as well, but 
we are seeing just on a devastating scale in our State right 
now is opioid and heroin addiction. I have been working on 
legislation called the Comprehensive Addiction and Recovery 
Act. I am hoping that we are going to take this issue up here 
to not only the--I hope the Second Chance Act, but also this 
Comprehensive Addiction Recovery Act.
    There was some discussion you had about this idea of 
alternative courts up front. What would you do as you think 
about this issue? How many people did you encounter that had 
addiction issues that were underlying why they were in prison? 
And how do you 
see--this, to me, to Senator Heitkamp's point, I fully agree. 
We cannot arrest our way out of this. This is a public health 
crisis.
    Ms. Kerman. Yes.
    Senator Ayotte. But, I wanted to get your thoughts on what 
you think we should be focusing on those.
    Ms. Kerman. Thank you, Senator. What is happening in New 
Hampshire is also happening in Ohio and all over this country 
in terms of huge spikes in deaths from heroin and other----
    Senator Ayotte. It is devastating. I mean, you would not 
believe the parents that are coming to me. It is just 
heartbreaking.
    Ms. Kerman. Yes, it is. It is devastating. It is 
fundamentally a public health question first and foremost, and 
so it is intersections with the criminal justice system really 
should be secondary, particularly as we continue to see violent 
crime rates very low.
    And, so, while obviously people who sell or use drugs are 
breaking the law, remembering that intervening in that 
addiction cycle is the single most important thing and cannot 
be accomplished with a prison or a jail cell, is completely 
central.
    We see a lot of folks in the States trying lots of 
different things, and I am obviously neither a doctor nor an 
expert in addiction, but we see safe harbors in places like, I 
believe, Gloucester, Massachusetts, and some other parts of the 
New England States have really tried very innovative approaches 
to getting folks the medical help they need and having that be 
the primary concern rather than incarceration.
    When we look at States like New York, New Jersey, 
California, the States that have reduced their prison 
populations the most and also have simultaneously continued to 
enjoy huge declines in violent crime, one of the things that we 
have seen in those States, and I know Udi could weigh in on New 
Jersey, is a huge decline in prosecutions and incarceration of 
people for low-level drug offenses and a recognition that 
public disorder is a reflection of a health problem and that is 
the way to tackle it.
    Senator Ayotte. Thank you.
    Chairman Johnson. Thank you, Senator Ayotte. Senator 
Baldwin.

              OPENING STATEMENT OF SENATOR BALDWIN

    Senator Baldwin. Thank you.
    First of all, I want to thank our panelists. What a 
tremendous opportunity it is to hear from you and interact with 
you.
    Mr. Chairman, I really want to join the thanks for holding 
this hearing, also to the Ranking Member. As you said in the 
outset and many have commented, this is a very big and very 
complex issue, and so I hope we will have additional 
opportunities, and I want to say that I am glad that you are 
recognizing this Committee's role in that discussion and I hope 
that we can keep that up.
    There are a number of things I wanted to touch on. I heard 
the Ranking Member talking about upholding the models in States 
that are working, and I usually love to brag about my State, 
but in this particular case, I am just going to share some of 
the statistics about racial disparities in the incarcerated 
population in our State.
    In Wisconsin, African Americans constitute only 6 percent 
of the State population, a little bit more. Thirty-five percent 
of those incarcerated in State prisons are African American. 
According to a recent study from the University of Wisconsin in 
Milwaukee, 13 percent of Wisconsin's African American men of 
working age were behind bars, which is almost double the 
national average of 6.7 percent. And the figures were 
particularly shocking and dismal for Milwaukee County, where 
more than 50 percent of African American men in their 30s had 
served time in prison. Forty-five percent of the inmates at our 
Federal correctional facility, Oxford, are African American, 
and 19.3 are Hispanic. And, I hope as we continue to work on 
this very complex issue that that will be on our minds.
    I also just wanted to mention, and people were talking 
about their previous service, attorney generals. I was never 
attorney general. I practiced law in a small general practice 
firm at the very beginning of my career, mostly general 
practice. A couple of times, I took misdemeanor public defender 
cases. That is really my only immediate interaction.
    But, I was becoming involved in county politics and State-
level legislative office at this time where I felt like I saw 
the precursors of what we are seeing now being debated. So, I 
had the honor, actually, as serving as Chairwoman of the 
Corrections Committee in the State legislature for one term. I 
actually took our committee to prisons for tours, for visits 
for conversations with people who worked there, people who were 
inmates there. We had sometimes legislative hearings in the 
prisons. We went to the intake facility, one of the maximum-
security prisons, one of the medium-security prisons for men, 
one of the minimum-security prisons for men. We went to the 
women's prison on a couple of occasions and visited work-
release facilities.
    At the same time, the legislature was talking about should 
we allow private prisons to be built and run in Wisconsin? 
Should we contract with other States to deal with our overflow 
issues and have them house our Wisconsin prisoners? And the 
counties were doing the same thing, because some of the jails 
at the county level were overflowing.
    And the debate, the substantive criminal justice debate in 
our State at the time, and this is the early 1990s, three 
strikes you are out, elimination of probation parole. We were 
creating new felonies. We had an A felony and a B felony. We 
created an AB felony. New crimes were being created. And, there 
was a lot of debate about the elimination of prison-based 
vocational programs. Mandatory minimums were a big topic. You 
could see all of this sort of in the future, and now the future 
has come and it is not going to be overnight that we figure out 
what missteps we have had and how we deal with this in a saner 
way.
    I have a couple of questions, and if I do not get to all of 
them, I am hoping that you will be willing to submit some 
answers in writing for some things we might not get to.
    Quickly, Mr. Kerman, you mentioned that women are the 
fastest-growing prison population right now. I remember years 
ago when I was visiting the women's prison in Wisconsin, it 
seemed that, to me, there were gender differences in how they 
dealt with certain issues. We have talked a lot about solitary 
confinement. Is there a gender difference in how these issues 
are dealt with in women's prisons? For example, I remember 
being very concerned about over-medication of women in the 
women's prison to deal with behavioral issues as opposed to 
placement in solitary confinement. Is this something we should 
still be looking at?
    Ms. Kerman. We should absolutely be looking at the use of 
solitary confinement in men's and women's prisons. I echo Udi's 
testimony that solitary confinement is often used not for the 
most serious infractions, like an assault, for example, but 
rather for very low-level infractions. Women are overwhelmingly 
likely to be incarcerated for a non-violent crime and are very 
unlikely to use violence while they are incarcerated. Women's 
facilities do not tend to struggle with violence as one of 
their guiding issues in terms of security. Solitary confinement 
is overwhelmingly used as a punitive measure.
    Female prisoners are disproportionately likely to suffer 
from mental illness. Mental illness in men's facilities is a 
huge problem. It is an even bigger problem in women's 
facilities.
    One of the tragic things about solitary confinement is that 
mentally ill people have a more difficult time following the 
rules of a prison, and so what you see is spiraling sanctions 
which ultimately land them in solitary confinement, a place 
profoundly inappropriate for anybody with mental illness. A 
regularly healthy person who is placed in solitary confinement 
for 10 days, after 10 days will start to significantly 
deteriorate mentally, emotionally, psychologically, let alone a 
mentally ill person placed in those circumstances.
    Senator Baldwin. Since I only have a couple of seconds 
left, let me ask a quick question about reentry and both in-
prison and after prison access to vocational and educational 
programming, and you can certainly feel free to elaborate after 
the fact in writing, because I know I have such limited time.
    But, again, I recall the restriction of any sort of public 
funds or individualized financial aid assistance to those, 
particularly in State prison, because that was something I was 
looking at closely. I believe that has continued over time, and 
we have additional restrictions once a person is back in the 
community, they want to seek additional vocational or higher 
education generally. It makes it impossible for the financial 
aid.
    You have talked already, Mr. Dillard, about people emerging 
burdened with debt not related to higher education. Tell me a 
little bit about the options for people to secure post-high 
school education upon release.
    Mr. Dillard. Well, I am seeing more opportunities opening 
up for individuals post-release. At one time, there was you 
check a box and you could get student loans. I am happy to hear 
that the Pell Grants, there is a pilot going on within the 
Federal system with Pell Grants. I am so happy to hear that, 
because it is a fact that individuals prior to 1994--I know 
many individuals who served time prior to that who came out 
with Associates' degrees and went on to achieve Bachelors' and 
Masters'. The fact is, 98 percent of those who get a Bachelor's 
or a higher degree never return to prison. I mean, that is 
something that we cannot ignore, and I think that we should 
support as far as higher education within the system.
    Senator Baldwin. Thanks.
    Chairman Johnson. Thank you, Senator Baldwin.
    We do have a second panel, and we could keep going on. This 
has been fascinating. Again, I want to thank this panel.
    As we talked beforehand, the purpose of every hearing, from 
my standpoint, in this Committee is to define a problem, lay 
out the reality so we collectively can admit we have it. I 
think you have accomplished that goal big time----
    Senator Booker. Mr. Chairman.
    Chairman Johnson. Yes.
    Senator Booker. If I may, this is such a complex issue and 
we have dealt with such distinct verticals here, from solitary 
confinement to the lack of reentry programs, it might be good 
to pick one of those verticals, given the vastness of this 
problem, and maybe hold another hearing where we can invite----
    Chairman Johnson. I was just going to get there. This is 
just a first in what I think will end up being a series of 
hearings. We actually have a mission statement for this 
Committee, a little unusual for a Senate Committee. It is 
pretty simple: to enhance the economic and national security of 
America. I think this issue touches both.
    One of the things we have tried to do in this Committee, 
too, is find the areas of agreement. I think what you have seen 
in this hearing is that there is a great deal of bipartisan 
agreement that what we are doing just is not working, and not 
because of lack of effort by our next panel of witnesses, by 
any stretch of the imagination.
    So, Mr. Ofer, I would encourage you and your organization 
to continue to press for this and work with those of us that 
want to solve this problem. I think your points on solitary 
confinement are dead on and we need to fix that.
    Mr. Dillard, God bless you for having turned your life 
around and taking your circumstance and offering that to your 
fellow man to help other people find redemption and, again, 
turn their lives around, as well.
    Ms. Kerman, I think with your unintended celebrity, I think 
you have done an excellent job of raising these issues. I have 
already spoken to my staff. I liked your answer to the question 
in terms of what are alternatives. And from my standpoint, a 
rigorous dose of community reparation and those types of 
programs, community service, I think is probably appropriate 
for people that have committed crimes. We do need some 
punishment. We need deterrence. But, hopefully, in those 
community service, you just might heal and you just might find 
that a far more effective way at dealing with these issues than 
locking somebody up and really seeing the result that is simply 
not working.
    So, again, I just want to thank everybody here on this 
panel. I want to continue to work with you and work with 
Members of the Committee on a bipartisan basis. This is just a 
first of what will be, I am sure, a series of, I think, very 
important hearings. So, thank you very much.
    We will call up our next panel.
    By the way, if you have time, I would love to have you stay 
and listen to our next panel, as well. But, you do not have to 
feel obligated to.
    [Pause.]
    Mr. Samuels, before you sit down, I am going to ask you to 
stand right away again, because it is the tradition of this 
Committee to swear in witnesses, so if you will both rise and 
raise your right hand.
    Do you swear the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Samuels. I do.
    Mr. Horowitz. I do.
    Chairman Johnson. Please be seated.
    Our first witness in this panel will be Charles E. Samuels, 
Jr. Mr. Samuels is the Director of the Federal Bureau of 
Prisons and was appointed on December 21, 2011. He is a career 
public administrator in the Federal Bureau of Prisons, 
previously serving as the Assistant Director of the 
Correctional Programs Division, where he oversaw all inmate 
management and program functions. Director Samuels was also 
responsible for enhancing the agency's reentry initiatives. Mr. 
Samuels.

  TESTIMONY OF CHARLES E. SAMUELS, JR.,\1\ DIRECTOR, FEDERAL 
         BUREAU OF PRISONS, U.S. DEPARTMENT OF JUSTICE

    Mr. Samuels. Good morning, Chairman Johnson, Ranking Member 
Carper, and Members of the Committee. I thank you for your time 
and focus on the important issue of Federal corrections.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Samuels appears in the Appendix 
on page 123.
---------------------------------------------------------------------------
    I am pleased to discuss with you today the operations of 
the Federal Bureau of Prisons. I am also pleased to speak on 
behalf of our 39,000 dedicated correctional workers across the 
country who are on the job 24 hours a day, 7 days a week, to 
support the Bureau's public safety mission.
    We protect society by confining offenders in facilities 
that are safe, humane, cost efficient, and appropriately 
secure, and we provide offenders programs to help them become 
law-abiding citizens. Simply stated, we protect society and 
reduce crime.
    But, we face significant challenges. The Bureau does not 
control the number of offenders who enter our system or the 
length of their stay. We are required to house all Federal 
offenders sent to prison while maintaining safety, security, 
and effective reentry programs.
    We house offenders convicted of a variety of offenses, many 
serving long sentences and many with extensive histories of 
violence. Drug offenders make up almost half of our population. 
We house many individuals convicted of weapons, sex, and 
immigration offenses, to include individuals convicted of 
international and domestic terrorism. The Bureau is the largest 
correctional agency in the country, with more than 207,500 
offenders in 122 Federal prisons, 13 private prisons, and 178 
community-based facilities.
    Our agency began to expand rapidly in the 1980s, due 
largely to the Nation's War on Drugs. From 1980 to the present, 
we experienced an eightfold increase in the size of our inmate 
population. Crowding in Federal prisons reached nearly 40 
percent systemwide, and even higher at medium-and high-security 
prisons, where the more violence-prone offenders reside. The 
tremendous growth in the inmate population outpaced staffing 
resources and negatively impacted institution safety. Our 
ability to effectively supervise prisoners and provide inmate 
programs depends on having sufficient numbers of staff 
available at our prisons.
    Recently population pressures abated slightly. In fiscal 
year 2014, we saw the first decline in the inmate population in 
more than 34 years, and we project declines to continue for the 
next couple of years, but crowding will remain a challenge.
    Staff safety, as well as the safety of the public and 
offenders we house, is my highest priority. Every day, our 
staff put the safety of the American people above their own to 
keep communities safe and secure. Some of the saddest days in 
my 27-year career occurred one week in 2013, when two staff 
were killed in the line of duty. Correctional Officer Eric 
Williams was killed on February 25, and the next day, 
Lieutenant Osvaldo Albarati was murdered. These tragedies are 
powerful reminders of the real dangers our staff face.
    To enhance safety, the Bureau has taken advantage of 
technologies for contraband detection and perimeter security. 
We are piloting pepper spray for staff. And, we are requiring 
the use of protective vests. We have increased our correctional 
officer staffing at high-security institutions during evenings, 
weekends, and holidays.
    Over the past few years, we have been proactive in 
addressing concerns regarding the use of restrictive housing. 
Since 2012, we substantially reduced the number of inmates in 
our special housing units and special management units. Less 
than 7 percent of our population is in restrictive housing, and 
very few inmates are housed without another individual in the 
cell. Our focus is to ensure inmates are placed in restrictive 
housing for the right reasons and for the right amount of time.
    We created new secure mental health units for inmates who 
need specialized treatment as well as a high degree of 
supervision to protect themselves and others. We look forward 
to making additional reforms in the area of restrictive 
housing.
    We have a saying in the Bureau, that reentry begins on the 
first day of incarceration. This means that we assess each 
offender by reviewing issues related to criminal behavior, 
including substance abuse, education, and mental health. We 
offer numerous programs to target offender needs and prepare 
them to transition successfully to their communities. Many of 
our programs have been proven to reduce recidivism, such as the 
Residential Drug Abuse Treatment Program, Federal Prison 
Industries, and vocational educational programs.
    We have programs for mentally ill offenders, including 
those with histories of trauma. We also have programs for 
offenders with cognitive impairments, sex offense histories, 
and those with severe personality disorders. We provide 
programs to help offenders deepen their spiritual faith, and we 
have programs specifically tailored to the needs of female 
offenders.
    The Bureau relies on a network of community-based 
facilities, residential reentry centers, or halfway houses, as 
well as home confinement. Community placements help offenders 
readapt to the community and secure housing, jobs, medical 
care, and more.
    Chairman Johnson, Ranking Member Carper, and Members of the 
Committee, this concludes my formal statement. I am proud of 
the work our staff do to keep Americans safe. Again, I thank 
you for your time and focus on the important issue of Federal 
corrections.
    Chairman Johnson. Thank you, Director Samuels.
    Our next witness is Michael Horowitz. Mr. Horowitz is the 
Inspector General for the Department of Justice. During his 
tenure as the Inspector General, the Office of Inspector 
General has identified a number of areas for possible reform 
within the Bureau of Prisons, including its budget, inmate 
programming, especially as it relates to the elderly inmate 
population, increasing safety and security risk for inmates, 
and implementation and management of the Compassionate Release 
Program. Mr. Horowitz.

 TESTIMONY OF MICHAEL E. HOROWITZ, INSPECTOR GENERAL,\1\ U.S. 
                     DEPARTMENT OF JUSTICE

    Mr. Horowitz. Mr. Chairman, Ranking Member Carper, and 
Members of the Committee, thank you for inviting me to testify 
today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Horowitz appears in the Appendix 
on page 132.
---------------------------------------------------------------------------
    The Justice Department faces two interrelated crises in 
managing the Federal Prison System. Prison costs continue to 
rise, while Federal prisons remain significantly overcrowded. 
In an era of tight budgets, this path is unsustainable.
    Since fiscal year 2000, the Bureau of Prisons' budget has 
nearly doubled. It now accounts for 25 percent of the 
Department's discretionary budget. The BOP has more employees 
than any other DOJ component and the second-largest budget at 
the DOJ, trailing only the Federal Bureau of Investigation 
(FBI).
    One of the primary drivers of these cost increases, in 
addition to the increased prison population, is health care, 
which cost the BOP over $1 billion in 2014--a 61 percent 
increase since 2006. This rapid increase can partly be 
attributed to the aging of the Federal inmate population. In a 
recent OIG report, we found the number of inmates age 50 and 
older increased by 25 percent from 2009 to 2013. By contrast, 
the population of inmates under age 50 actually decreased by 
one percent, including a decrease of 29 percent for inmates 
under age 30. This demographic shift is notable because aging 
inmates cost more to incarcerate.
    Our report also found that BOP institutions lack 
appropriate staffing levels to address the needs of the aging 
inmate population. For example, while social workers are 
uniquely qualified to assist aging inmates, BOP employs only 36 
social workers nationwide.
    We further found that the physical infrastructure of BOP 
institutions cannot adequately house aging inmates and that the 
BOP has not conducted a nationwide review of the accessibility 
of its institutions since 1996. Additionally, we found the BOP 
does not provide programming opportunities specifically 
addressing the needs of aging inmates.
    We also concluded that based on their lower rates of 
recidivism, certain aging inmates could be viable candidates 
for early release, a program that Congress has authorized. 
However, we found that in just over one year following the 
Attorney General's announcement of an Elderly Compassionate 
Release Program, the Department and the BOP only released two 
elderly inmates pursuant to it.
    These findings are similar to what we reported in our 2013 
review of the BOP's Compassionate Release Program for all 
inmates. We found that BOP's program had been poorly managed 
and was implemented inconsistently. Following our review, the 
BOP expanded its Compassionate Release Program and has modestly 
increased the number of inmates released under it.
    In our 2011 review of the Department's International 
Prisoner Transfer Program, another program Congress has 
authorized and which permits foreign national inmates to serve 
the remainder of their sentences in their home countries, the 
OIG found that the Department rejected 97 percent of transfer 
requests and transferred less than one percent of inmates to 
their home countries to complete their sentences. We concluded 
the Department needed to make a number of improvements to the 
program, including ensuring it accurately determined whether 
inmates are eligible for the program, and we are currently 
completing a followup review to that report.
    Another area where the BOP costs have increased 
substantially is for private contract prisons, which are 
largely used to house inmates, many of the BOP's 40,000 non-
U.S. national inmates. The BOP's budget for contract facilities 
is over $1 billion, and the proportion of Federal inmates 
housed in BOP contract prisons has increased from 2 percent in 
1980 to about 20 percent in 2013. Indeed, two of the three 
largest DOJ contractors are private prison providers.
    In addition to addressing rising costs, the Department must 
also continue to address efforts to ensure the safety and 
security of staff and inmates. Prison overcrowding represents 
the most significant threat to the safety and security of BOP 
staff and inmates with Federal prisons at 30 percent over rated 
capacity. Indeed, in every one of its agency financial reports 
since 2006, the Department has identified prison overcrowding 
as a programmatic material weakness, yet the problem remains 
unresolved today.
    In addition to overcrowding, the unlawful introduction of 
contraband presents a serious threat to safety and security. 
The unauthorized use of cell phones has proven to be a 
particularly significant risk, and the GAO has reported that 
the number of cell phones confiscated by the BOP more than 
doubled from 2008 to 2010.
    Additionally, sexual abuse in prison remains a serious 
safety and security issue. The OIG has continued its 
longstanding efforts to investigate sexual abuse by institution 
staff at Federal prisons and detention facilities. In addition, 
we recently reported on the Department's efforts to implement 
and comply with the Prison Rape Elimination Act.
    Finally, a significant management challenge for the 
Department has been measuring the success of its prison 
programs. An essential building block to achieving performance-
based management is having reliable data, an issue that has 
proven to be a challenge for both the Department and the BOP. A 
comprehensive approach to the collection and analysis of data 
on how well BOP programs are reducing incarceration rates, 
deterring crime, and improving public safety will help the 
Department focus its resources and make strategic investments.
    Thank you for the Committee's continued support for our 
work, and I would be happy to answer any questions the 
Committee may have.
    Chairman Johnson. Thank you, Inspector General Horowitz.
    Director Samuels, let me start with you. First of all, I do 
not envy your task, and I really do want to thank you for your 
service, which has been longstanding. So, let me start there.
    According to your bio that I have in front of me, you began 
as a correctional officer in March 1988. Because we have all 
quoted statistics here that in 1980, the prison population in 
the prison system was 25,000. Now, it is over 200,000. Can you 
just give us your perspective in terms of what all has 
happened, what you have witnessed over your career.
    Mr. Samuels. Thank you, Senator. From my perspective, 
having joined the agency as a correctional officer in 1988, and 
around that time, the Bureau's population was a little more 
than 60,000, I think historically, when you look at the Bureau 
of Prisons and you go back to 1940 and from 1940 to 1980, the 
Bureau's population pretty much remained flat for many years, 
in excess of 20,000.
    So, in 1980, which is the primary target for this 
discussion, we as an agency, we had approximately 24,000 
inmates in the Federal system. We had less than 9,000 
employees, 41 institutions, and we were able to operate the 
entire Bureau of Prisons for $330 million.
    So, when you look at the increase from 1980 to 2013, we 
were at more than 800 percent population growth and our 
staffing did not keep pace with that growth. And, with our 
mission, where we are tasked with anyone and everyone who is 
convicted and turned over to the Department of Justice and 
placed in the custody of the Bureau of Prisons. We have a job 
to do, a significant job, and it takes staff to do the work 
that is required.
    Chairman Johnson. Let me ask you, from your perspective--
again, you have been there--what drove that dramatic increase 
in prison population?
    Mr. Samuels. Well, the war on drugs in the early 1980s was 
a significant driver on the growth of the population, and as a 
result, we were having more offenders come into the system. 
And, we have a longstanding practice within the Bureau of 
Prisons, and this goes all the way back to the 1930s, that our 
reentry efforts are always in play, and that is to ensure that 
we are providing rehabilitation. But, the challenges associated 
with what we have to do is we are trying to protect the inmates 
as well as the staff who are in our facilities, but the driver 
has been the war on drugs.
    Chairman Johnson. Has there been any legitimate increase 
due to a crackdown on violent crime, that we just really, 
again, appropriately, cracked down on that, or is that really, 
like, we did not become a more criminal society. We were always 
arresting those people, convicting them and putting them in 
jail. Are we putting them in there longer? I want you to 
address that potential aspect of this, as well.
    Mr. Samuels. In regards to violent offenses, there is a 
mixture of individuals in Federal prisons, as you all aware, 
non-violent criminals and those with violence. And within our 
population, I think it is very safe to say that we have very 
violent offenders in our population, to include a significant 
amount of gang members. In the Federal system, we have more 
than 21,000 security threat group members who pose a 
significant threat to the public, inmates, and staff.
    Chairman Johnson. So, again, if we are talking about gang 
violence, would that also be, again, generally driven by drugs?
    Mr. Samuels. It can be driven by drugs if the gangs and 
those who are associated with that activity, if it is part of 
the structure within the gangs for monetary gain.
    Chairman Johnson. OK. Let me, again, stick with Director 
Samuels here and just ask some of the questions in terms of 
Inspector General's testimony. Why have we not been more 
proactive in terms of some of these early release programs that 
have been authorized? I mean, is there a risk aversion there, 
because, I mean, who wants to be responsible for releasing 
somebody into the public that is going to commit another 
violent crime. Can you just kind of speak to why we have not 
taken advantage of those programs a little bit more robustly.
    Mr. Samuels. Yes, Senator. As Director of the agency, my 
authority is very limited when you look at taking advantage of 
the various programs that are being referenced. With 
compassionate release, and I will start there, we as an agency 
did a thorough review and we determined a couple of years ago 
when we were looking at the number of individuals who would 
meet the criteria just for release based on terminal illness, 
we discovered that there were a little more than 200 inmates in 
the Bureau of Prisons, and once they were identified, you have 
to go further in making sure that for those individuals who are 
even being considered have the necessary resources if they are, 
in fact, given the opportunity through a motion and are 
released under that program. So, 200 inmates agency-wide with a 
population at that time that was at 220,000 is a very small 
number.
    Chairman Johnson. So, again, we are talking about 
compassionate release. We are talking about early release. We 
are talking about release to foreign nationals. And, under all 
three of those types of programs, are you saying the law or the 
regulation is just written too restrictively and just does not 
give you the latitude to utilize those programs more fully? 
Then, Inspector General, I will be asking you the same 
question.
    Mr. Samuels. Well, we have expanded, as you know. With the 
Compassionate Release Program, we moved from medical to non-
medical. And even when we look at those cases, and many are 
being referred, when you are looking at the criteria as well as 
being responsible for public safety for any of those 
individuals having the propensity to continue more criminal 
activity, we have to take that into account.
    With the Treaty Transfer Program, and I do share the 
concerns that the Inspector General has raised, we identified 
through the audit a problem there and we have since that time 
provided a number of training opportunities for our staff as 
well as educating the inmate population on their rights under 
consideration for the program, and we have seen an increase. 
However, when we submit the applications for consideration, 
there is another process that takes place with the Department, 
working with the various countries who have agreements under 
the Treaty Transfer Program, to make determinations on when 
those individuals are removed.
    Chairman Johnson. And, of course, they would probably 
rather have the United States bear the cost of keeping those 
people in prison themselves.
    Inspector General Horowitz, can you just kind of, again, 
speak to why, from your perspective, why some of these programs 
have not been utilized more fully.
    Mr. Horowitz. I think there are a couple of reasons, and I 
would agree with Director Samuels, in many of them, it is not 
because of the BOP decisionmaking, it is elsewhere in the 
Department or the way the programs have been structured and the 
restrictions that have been placed on their use. For example, 
elderly release, age 65 and over is where the threshold was 
set. The Attorney General announced that with great fanfare in 
August 2013 the increase in that use of that program, yet there 
are only two, we find, inmates being released under that 
program a year-plus later.
    Why is that? Well, in part, it is because of the 4,000-plus 
inmates who are over age 65 in the Federal Prison System, they 
have to meet certain very strict criteria, and both with regard 
to meeting the criteria, and as we found in that program and 
Treaty Transfer, the discretionary calls that have to be made. 
And, perhaps it is risk aversion. Perhaps it is a feeling that 
someone got a jail sentence, they should complete their 
sentence.
    Chairman Johnson. Let me ask, appropriately strict 
criteria?
    Mr. Horowitz. We had concerns with the elderly provisions, 
for example, requiring people to serve a long period of time 
and to demonstrate a lengthy period of service of a sentence. 
What that meant was for inmates who were the least dangerous, 
presumably had low sentences, they could not get released 
because they had not served a long period of time. That seemed 
odd to us.
    Chairman Johnson. So, that is something we should really 
take a look at.
    Mr. Horowitz. Right.
    Chairman Johnson. OK. Thank you. I do not want to go too 
much over time. Senator Ayotte.
    Senator Ayotte. Thank you, Chairman.
    Director Samuels, I actually want to ask you about a 
particular prison in my State that is important, especially. It 
is in Coos County. It is FCI Berlin. And, I wanted to ask about 
what the status is of staffing at that facility. Warden Tatum 
has indicated that the facility was staffed at about 290 and 
that there were about 1,200 incarcerated individuals there. Can 
you give me an update on levels and also what the ultimate goal 
is for capacity there and staffing?
    Mr. Samuels. Yes. Thank you, Senator Right now, with the 
plan for continued activation of the facility, we are working 
very closely with the warden and staff there to ensure that our 
recruitment efforts remain on target, and we are also ensuring 
that as we build a population, that we are making sure that the 
inmate-to-staff ratio is where it needs to be so we do not have 
more inmates in the facility until we are very comfortable with 
the number of staff that we have at the facility. And, this is 
continuing to progress.
    I know there was a concern at one period of time where the 
applicant pool was not necessarily where we would like it, but 
with the recruitment efforts, we are starting to see that we 
have a very good pool for hiring individuals to work at the 
facility.
    Senator Ayotte. So, one followup I wanted on the applicant 
pool. This is an area of our State where people are always 
looking for more jobs, and so to get people from the area that 
have strong backgrounds, one of the issues that has been a 
challenge is the 37-year-old age restriction. And, has the 
Bureau of Prisons actually reexamined this? I know I had 
previously written the Bureau of Prisons on this issue, but it 
is important that my constituents have an opportunity that live 
in the area to work there.
    Mr. Samuels. Yes. Thank you again, Senator. Our focus is to 
make sure that we are aggressively hiring from the local 
community as well as looking at veterans, and we do have the 
ability for individuals who are applying who have served to 
grant waivers, and we are in the process of doing that.
    Senator Ayotte. Well, that is very good to know, and I 
appreciate your prioritizing hiring people from the community. 
I know they are anxious and would like opportunities to work 
there, as well as our veterans, so I really appreciate your 
doing that, and I think you will find that there are a really 
dedicated group of people in the area, so thank you for that.
    I wanted to followup on the prior panel. There was quite a 
bit of discussion and criticism, actually, on the reentry 
program piece from the Bureau of Prisons and the commitment 
toward where we are when someone has finished their time and 
putting forward successful programs and path to success, which 
I am interested, because with our recidivism rate, it costs us 
a lot financially and also to the individual, to the quality of 
life that the person has an opportunity to set a new start, if 
there is not a good system in place for success. So, I wanted 
to get your comments on what you heard in the prior panel on 
this issue.
    Mr. Samuels. Well, thank you again, Senator. I, again, will 
say to everyone that reentry is one of the most important parts 
of our mission, along with safety and security of our 
facilities. And, the expectation Bureau-wide is for all staff, 
all the men and women who work in the Bureau of Prisons, to 
have an active role in our reentry efforts.
    On any given day in the Bureau of Prisons we have more than 
52,000 inmates who are participating in education. We have more 
than 12,000 individuals actively participating in our Federal 
Prison Industries Program, which is our largest recidivism 
reducing program in the Bureau of Prisons. Those who 
participate are 24 percent less likely to be involved in coming 
back to prison. And for vocational training, more than 10,000 
inmates are participating. And, for those individuals who 
participate compared to those who are not, the recidivism 
reduction is 33 percent. And, you all are very familiar with 
our Residential Drug Abuse Program, and we also have our non-
residential programs, as well.
    And, we are very adamant in ensuring that these programs 
are provided to all inmates within our population, to have them 
involved, for a number of reasons. It is safer to manage 
prisons when inmates are actively involved in programs, and we 
are definitely trying to do our part to ensure that for 
recidivism reduction in this Nation, we are taking the lead.
    For the number of individuals who come into the Bureau of 
Prisons, despite all the challenges and the figures that you 
are hearing, the men and women in the Bureau of Prisons do an 
amazing job. When you look at the specific numbers relative to 
recidivism for the Federal system, when individuals leave, we 
have 80 percent who do not return to the Federal system, 80 
percent. We have always known that the overall recidivism for 
the Federal system is 40 percent; 20 percent return to the 
Bureau and 20 percent go into the State systems.
    And, I would just also add that there is a study that has 
been done, that for the State correctional systems, and it is 
30-plus States, when you look at the overall average for 
recidivism, it is 67 percent.
    So, I would still say that we have a lot of work to do. I 
mean, the goal is to have a hundred percent individuals never 
returning. But, as I have already stated for the record, the 
amount of growth that has occurred over that time period, we 
are very limited with our staffing, but it does not remove us 
from the commitment to our mission. If our staffing had kept 
pace with the growth over the years, I do believe that I would 
be sitting here reporting that the 80 percent would have been 
much higher.
    Senator Ayotte. So, I want to give the Inspector General an 
opportunity to comment on how you think we are doing on reentry 
and any work that you have done on that.
    Mr. Horowitz. We are actually, Senator, in the middle of a 
review of the reentry programs and the use of reentry, and we 
are in the middle of field work going to the institutions to 
look at those programs, look at the education programs, because 
of the concerns we had heard. So, I cannot give you a report 
yet out on it. I think we will have something later in the year 
for you to look at. But, it is a very significant concern.
    I will just pick up on what Director Samuels said about 
staffing. That is a significant issue. That is a significant 
safety issue, security issue, reentry, because what you see is, 
first of all, by most accounts, the Federal staffing ratio of 
inmate to staff is worse than many of the State systems, what 
they have, and that has been exacerbated over time as the 
prison population has grown.
    There is a cascading effect of that. The Director and the 
staff have to pull people out of other programs to do 
correctional work, that they cannot be doing some of the other 
programs we are all talking about. And, so, that, I think, is 
lost sometimes and something certainly we are looking at right 
now is that cascading effect. If you understaff the prisons, 
the Director has to, first and foremost, make sure the prisons 
are safe.
    Senator Ayotte. I hope when you issue this report that you 
will also give us guidance on what the models are. What are the 
best models for reentry? If we are going to invest more 
resources in this to create a better path for success for 
people so that they do 
not--so we can reduce the recidivism rate, I think your 
recommendations on the piece of what is working best, where we 
should invest resources, would be really helpful. Thank you.
    Chairman Johnson. Thank you, Senator Ayotte.
    While we are quick on this subject, I was handed a note 
that apparently only 10,000 out of the 210,000 population are 
participating in that reentry program. Can you just quickly 
describe why, both of you? I mean, it sounds like a very 
successful program. Why are not more people engaged in it? 
Because I think, in total, we release about 45,000, I think 
from the briefing, about 45,000 prisoners every year.
    Mr. Samuels. Yes. If the 10,000 is in reference to the 
vocational training programs, we only have a limited number of 
opportunities that we can provide based on the number of 
inmates in our system, and that goes back to the crowding. With 
increased crowding, you have waiting lists in the Federal 
Prison System, no different than any other system. And, the 
goal is to try to push as many of these inmates through, and as 
we complete classes, we bring more individuals in for 
participation.
    Chairman Johnson. It is what I expected as an answer. I 
wanted to get that on the record. Inspector General.
    Mr. Horowitz. Yes. I think that is generally what we are 
finding, is there are limited resources. With limited resources 
mean limited number of classes.
    Chairman Johnson. OK. Senator Booker.
    Senator Booker. Thank you very much.
    Director Samuels, I really appreciate you being here, but 
more importantly--or, excuse me, also, I appreciate the fact 
that you visited me in my office and take a lot of the issues 
and concerns. You represent the administration as a whole, as 
the President has. You have done some extraordinary steps 
around overall criminal justice reform and I am grateful that 
you are here today. It means a lot.
    I also want to just echo, you are a part of the law 
enforcement community and your officers put themselves at risk 
every single day to protect this Nation, and I am grateful for 
the sacrifices that your officers have made. I am glad you 
mentioned, as we see on the Federal and State level, we do have 
officers not just losing their lives in the line of duty, but 
also officers who are injured pretty severely, often, in the 
line of duty, as well, and we as Americans should recognize 
that and that sacrifice and commitment.
    I want to talk to you really quick and focus my questions 
on solitary confinement and begin with solitary confinement of 
juveniles. There is a bipartisan dialogue going on right now 
about putting real limitations on the use of solitary 
confinement. Now, we know that this is an issue that faces 
thousands and thousands of children across America, but when it 
comes to the Federal system, this is actually a very small 
amount. It would probably surprise a lot of people that we are 
just talking about kids in the matter of dozens.
    So, this is in two populations, really. It is children that 
are tried as adults that are housed in adult facilities, and 
then the contracts, if I am correct, that you do with State 
facilities for juveniles, as well.
    Do you think it is feasible that, as is being discussed in 
Congress right now, and I have been in a lot of the discussions 
in the Senate, that we just eliminate solitary confinement, or 
severely limit it for children, being very specific, for 
instance, by placing a 3-hour time limit on juvenile solitary 
confinement and banning it really, for punitive or 
administrative purposes? Is that something that you would see 
as feasible and something that you would be supportive of?
    Mr. Samuels. Thank you, Senator. I believe that for this 
issue, and in the Federal system, as you have already 
mentioned, we contract out this service. We do not have any 
juveniles in an adult correctional facility. And, the 
expectation that we have with the service providers for us is 
that at any time they are considering placing a juvenile in 
restrictive housing, they are required to notify us 
immediately. And, even if that placement were to take place, 
there is a requirement, also, that they have to monitor those 
individuals every 15 minutes.
    So, in regards to your question with looking at the 
restrictions that could be considered, I would say that for our 
purposes regarding this, that it is definitely something that 
should be considered and looked at as a practice.
    Senator Booker. And, so, if Congress were to act on 
legislation putting those severe limitations on the practice, 
with limitations of just a matter of hours, that you would 
agree that is something that is feasible?
    Mr. Samuels. Yes.
    Senator Booker. I really appreciate that, and that is 
actually encouraging to the discussions going on right now. 
And, frankly, it is a small population, but doing it on the 
Federal level would send a signal to really resonate throughout 
our country and, frankly, is already being done in some 
jurisdictions.
    Pivoting to adult solitary confinement, if I may, this 
practice, as you know, has been harshly criticized. If you were 
listening to the other panel, there is a lot of data from the 
medical community specifically, and also civil rights community 
and human rights communities. A May 2013 report, which I know 
you are also familiar with, from the GAO found that the Federal 
Bureau of Prisons did not know whether its use of solitary 
confinement had any impact on prison safety, did not know 
necessarily how it affected the individuals who endure the 
practice, or how much, frankly, it is costing taxpayers in 
general.
    Just this year, a recent internal audit by the Bureau of 
Prisons noted inadequacies in mental health care and reentry 
preparedness for people in solitary confinement. As was said in 
the previous panel, many people max out in solitary and then 
find themselves going right into the general--I should not say 
general population, but going back into the public.
    In many ways, I think these reports are kind of a wake-up 
call of the seriousness of this issue, and so I first wanted to 
say, do you know right now how many people are in solitary 
confinement beyond 12 months, or, say, 24 months, or 36 months? 
Do you have that data?
    Mr. Samuels. Senator, I can provide that data for you.
    Senator Booker. OK. So, we do track those folks who are 
staying in, often for years in solitary?
    Mr. Samuels. Yes. And, Senator Booker, First, I would like 
just to state for the Bureau of Prisons, we do not practice 
solitary confinement. In my oral testimony and my written 
testimony, our practice has always been to ensure that when 
individuals are placed in special housing, we place them in a 
cell with another individual, to the greatest extent 
practicable and our staff make periodic rounds to check on the 
individuals. And, I also believe that it is important----
    Senator Booker. And, I am sorry, I just really need to be 
clear on that. Your testimony to me right now is that the BOP 
does not practice solitary confinement of individuals 
singularly in a confined area.
    Mr. Samuels. You are correct. We only place an individual 
in a cell alone in special housing if we have good evidence to 
believe that the individual could cause harm to another 
individual and/or if we have our medical or mental health staff 
give an evaluation that it would be a benefit to the individual 
to be placed in a cell alone. We do not under any 
circumstances, nor have we ever had a practice of placing 
individuals in a cell alone.
    Senator Booker. OK. That is astonishing to me, and I would 
love to explore that further, because all the evidence that I 
have is that it is a practice at the Federal level. So, you are 
telling me that there are not people that are being held for 
many months alone in solitary confinement, is that correct?
    Mr. Samuels. When you look at the Bureau of Prisons agency-
wide, that is not a practice. We have three forms. We have our 
Special Housing Units (SHU), which are the majority of 
individuals throughout the country placed in restrictive 
housing. We also have a program we call----
    Senator Booker. So in the SHU, which they are not 
individually held.
    Mr. Samuels. No, sir. And, on average, agency-wide, the 
average amount of time that individuals are spending, on 
average--again, total--is a little more than 65 days.
    Senator Booker. And, so, the SHU is not solitary 
confinement. There is not an individual in a cell alone.
    Mr. Samuels. That is not the practice in the Bureau of 
Prisons. It never has been the practice.
    Senator Booker. I hope there will be another round.
    Chairman Johnson. Senator McCaskill.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. Thank you.
    Mr. Samuels, what percentage of the inmates that you are 
responsible for have been convicted of a violent crime in the 
Federal courts?
    Mr. Samuels. Convicted of a Federal crime in----
    Senator McCaskill. Of a violent crime.
    Mr. Samuels. A violent crime----
    [Pause.]
    Approximately 5 percent.
    Senator McCaskill. OK. So, we have 5 percent violent, 95 
percent non-violent. I think the thing that people need to 
understand, which I am not sure people do, is that 5 percent 
that committed violent crimes, you do not even have primary 
jurisdiction, probably, on most of those crimes in the Federal 
system.
    I do not think people realize that the Federal law 
enforcement system was not designed or ever intended to address 
what most people think of as crime in this country. It was 
originally intended to be just for those kinds of crimes that, 
because of the interstate nature of them, they needed to be 
handled by the Federal Government. That would be crimes 
involving the drugs going from country to country, then 
eventually we started nibbling away at that and we started 
doing bank robbers, and then we started doing interstate 
kidnappings or interstate--and I know this, because we handled 
a whole lot of murder cases when I was the prosecutor in Kansas 
City, and nothing was more irritating to me.
    We had the best homicide detectives, I believe, in the 
Midwest in the Kansas City Police Department. We had 
experienced prosecutors who handled murders every day, and 
invariably when there was a really high-profile murder case, 
all of a sudden, the FBI would start sniffing around and try to 
grab that case and find some kind of interstate part of the 
crime so that they would take the case, as opposed to us, who 
handled murder cases all the time and, frankly, in my opinion, 
biased as it may be, had much more expertise.
    I say all this because you are spending $7 billion, and 95 
percent of that money is being spent on non-violent offenders. 
That is an astounding number on non-violent offenders, an 
astounding number. So, my question is, how many times have you 
been brought into the policy questions of who is being 
prosecuted in the Federal system and why, because you guys do 
not get 911 calls. Nobody calls the FBI with a 911 call. I used 
to make the point to my friends who were FBI agents, hey, they 
did not call you. They called us. So, the Federal system gets 
to pick what this is not required. They get to decide what they 
want to prosecute, unlike State prosecutors, who have to make a 
decision on every single case.
    So, are you ever called in to the policy discussions about 
the growth of Federal law enforcement and this massive amount 
of prosecution that is going on and the growth in the prison 
system, because these decisions are being dictated by the 
Department of Justice in how many cases they are actually 
filing. Are you ever consulted on any of those decisions?
    Mr. Samuels. Senator McCaskill, I would offer that the 
Bureau of Prisons, when the discussions are taking place, we 
are brought into the discussion when needed by the Department. 
But, I also would share, which I am sure you are aware, that 
for any policy decisions relative to who is being prosecuted, 
that remains with my colleagues in the Department who will be 
more than anyone else regarding this issue capable of 
responding to that.
    Senator McCaskill. So, let us get at the stuff that you can 
do. Let us talk about the Elderly Offender Program. The way you 
entered into some of the contracts, you did not specify out 
what the costs of home detention was versus your detention, 
correct? In other words, what you did is you did not--you were 
not able in the pilot--is this not correct, Mr. Horowitz, that 
they were not able to discern what a release into home 
detention was costing versus incarceration in one of the prison 
facilities?
    Mr. Horowitz. That is correct. The GAO found that in their 
review of the pilot.
    Senator McCaskill. Correct. So, you are not in a position 
that you can even analyze what the costs of a home detention 
program versus prison would be, correct?
    Mr. Samuels. Well, since that time, once the finding was 
made, we have been working to isolate those costs.
    Senator McCaskill. OK. And how are you doing that?
    Mr. Samuels. We have put together procedures within our 
Administration Division, the staff who are responsible for the 
contracting oversight, to monitor----
    Senator McCaskill. OK. There were 784 of 855 applicants for 
the Elderly Release Program that were denied. Seven-hundred-
eighty-four out of 855 were denied. Can you explain why they 
were denied, that massive amount? And, these are all elderly. 
These are not young people.
    Mr. Samuels. I can take your concern back, but from the 
knowledge that I have regarding this, many of those 
individuals, it was dealing with the issue of being eligible 
based on the criteria that was put in place.
    Senator McCaskill. Who sets the criteria?
    Mr. Samuels. The criteria for the pilot?
    Senator McCaskill. Yes. Who set it?
    Mr. Samuels. That was established by Congress.
    Senator McCaskill. So, we are the ones that said that if it 
is a low-level offender that got an 18-month sentence, they 
could not go to a home program unless they had served 18 
months?
    Mr. Samuels. Well, the Department was involved with the 
final determination on what the criteria would be. But, that 
was something that was done through conversation between 
Department and Members of Congress.
    Senator McCaskill. Well, I would love to know who was in on 
that conversation, if you would provide that to the Committee. 
And, I would like to see the criteria, because if you have 95 
percent of your population is non-violent, and we know that the 
recidivism rate for people over the age of 55 is somewhere 
between 2 and 3 percent--by the way, that is a recidivism rate 
that any reentry program or any drug court program or any State 
court system would die for. That is an amazingly low recidivism 
rate. I do not understand how we are turning down 784 of 855 
applicants for a pilot program.
    It seems to me that the institution is being stubbornly 
stuck in the status quo, stubbornly stuck in the status quo. 
And, I am so excited that we have critical mass around here. As 
somebody who, against a lot of political headwind, started one 
of the first drug courts in the country as an elected 
prosecutor, I convinced the people in my community and the 
police department that a drug court was a taxpayer factory, 
because the people who went into drug court were either on 
welfare or they were stealing. They were not paying taxes. And, 
all the non-violent crimes they were committing was because 
they were drug addicted. And that drug court movement--ours 
began in 1993. It spread all over the country and the world 
because it worked so well.
    Do you know what I had to do? I begged the Federal 
Government to participate in our drug court program. Did not 
want to hear a word about it. I could not even get them to send 
us their mules, the girlfriend mules. They would not even send 
us those for--I mean, I was saying, let me take your cases, 
your low-level drug offender cases. Would not hear of it in the 
1990s.
    And, I am just not sure that we have moved that much in the 
Department of Justice, and I hope we can all work together.
    I know my time is up. I have some questions for the record 
about Reeves County, that contract. Why in the world are we 
using a county as a go-between on a prison contract? And, also, 
these criminal alien prisons that we have, that half of them 
are immigration offenses, and I am curious about the $1 billion 
price tag on that. So, I will get you those questions for the 
record.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator McCaskill.
    I do not want to put words in your mouth, but I think we 
are finding another area of agreement here, the Federal 
Government getting involved in something that, from my 
standpoint, is better left to the States and local governments, 
because they are just better at it. They are closer to it. They 
use a little more common sense approach.
    I have frequently said, Washington, DC, the Federal 
Government definition of it, is the law of unintended 
consequences, and I think we are seeing a lot of that here 
today--again, not because of good intentions, and not because 
of people working hard and sacrificing, but I think that is 
just basically true.
    I want to be respectful of the witnesses' times. I know 
Senator Booker had another question here. I am happy to do 
that. But, let us not abuse the time.
    Senator Booker. No, I am grateful, and I think we are 
having semantic problems, Mr. Director. So, the DOJ defines 
solitary confinement as the terms isolation or solitary 
confinement mean the state of being confined to one cell for 
approximately 22 hours per day or more alone or with other 
prisoners. The health consequences for solitary confinement, 
period, are well learned, and this is a common practice in the 
Federal system. But, it is not just with other prisoners. In 
the SHU, often, in the Special Management Units (SMUs), it is 
common, as well, and the average stay in that is 277 days. And 
in the Administrative Maximum Prisons (ADX), the average 
solitary confinement is 1,376 days.
    So, this is a real problem and it does exist, and forgive 
me if my semantics were wrong, but I think I have more 
precision now.
    Mr. Samuels. No, sir, and I did want to clarify, and I 
appreciate you bringing the subject back before, that at the 
ADX, and when I testified in 2012, at that time, we had a 
little more than 400 inmates at the ADX in Florence, Colorado, 
which makes up less than one-third of one percent of our entire 
population. And for that population, those individuals are 
placed in a single cell, and the majority of that population, 
also, when you look at their offenses, 46 percent have been 
involved in some homicide at some point in their lives.
    Senator Booker. Again, but the reality is, I do not care if 
it is a homicide, non-violent drug crime, what are we getting 
for taxpayers for putting them in an environment in which human 
rights folks consider that torture, and we have a medical 
community that has a consensus about torture, or the harmful, 
excuse me, traumatizing effect of that.
    And, so, what I am just saying is--and again, the crime, 
violent, non-violent, I am just saying that this is a Nation 
that does not endorse torture or believe that we should 
traumatize folks, and if there is no data that supports us 
actually having something positive coming out of this, it has 
to be a practice that we should end or severely limit. And, 
that is what I am just saying. I am trying to do a data-driven 
approach relying on experts and science.
    And, just because I want to stay on the good side of the 
Chairman, I am going to shift off of this issue, because I have 
enough questions to last another 10 minutes and I do not think 
I am going to get that. I will tread upon----
    Chairman Johnson. No, you are not.
    Senator Booker [continuing]. His indulgences as long as 
possible.
    So, just real quick, a real quick point. The Bureau of 
Prisons houses 14,500 women. As we talked about in the last 
panel, overwhelmingly, these women have children, children of a 
minor age. The trauma visited upon children, and those often 
the primary caregivers, there is a lot of issues, and so I just 
want to get to this one reality, that in Danbury, Connecticut, 
which is a mere 70 miles away from the New York City area--I 
like to call it the Greater Newark area--which is an easy reach 
for visitors from the Northeast, that is going to be changed 
and those women are now going to be moved, slated right now to 
move to Alabama, to a facility there which is about 1,000 miles 
away from the Greater Newark area, a drive that takes more than 
16 hours.
    And, so, why was the 500-mile policy enacted, which is a 
good thing, which is something I endorse due to the cost of 
travel. Would you commit to revising the rule to have a 
presumption of 75 miles, if possible? Do you understand?
    Mr. Samuels. Yes.
    Senator Booker. Is there a chance to revise that rule?
    Mr. Samuels. Senator, when we looked at the mission change 
for Danbury, we made every effort to try to make sure through 
fairness for those offenders who not only were living in the 
New England States as far as their residence, but we had many 
offenders there who were from California, who were from Texas, 
and what we tried to do is make sure that with the realignment, 
that we move those individuals who were not from that part of 
the country so they could be closer to their families----
    Senator Booker. So, we are taking care of the Californians, 
but there are a lot of people from the Northeast, a lot of 
women with small children who are having those connections 
effectively severed, and that is very problematic.
    I am just going to shift for now, if I can, and I 
apologize. I just want to quickly just look at the private 
prison issue real quick and shift to Mr. Horowitz, if I can. I 
do not want you to feel like I was ignoring you in this 
hearing.
    Are you concerned about the growth of private prisons that 
contract with the BOP, and what have you--that these prisons 
are accountable to the public, because we have real issues with 
these contracts, with a total costing us about $5.1 billion for 
taxpayers--and these are for-profit companies that, according 
to The Sentencing Project, 33,830 BOP prisoners were held in 
private facilities in 2010, and by the end of 2011, that number 
has grown significantly, to over 38,000. And, I am concerned 
about oversight.
    And then there is a lack of reporting, information that is 
just--I can get a lot of information easily from the prisons 
that are being run by the Director, but there is this 
unbelievable, really offensive to me, lack of information and 
data about our private prisons and what is going on there.
    And, so I want a last part of that question, and then I am 
done, just will wait for the answer, is the abuse reports of 
immigrant detainees. Now, I understand these folks are non-
American citizens, but they are human beings, and the report of 
abuse at our private prisons are troubling. Thousands of men 
live in 200-foot Kevlar tents in some of these facilities that 
each house about 200 men. The facilities are described as 
filthy, insect-infested, horrible smells, constantly 
overflowing toilets. This is an affront for this Nation, for 
what we stand for.
    For me, it is an affront, and I am just wondering, what 
steps are you taking to hold these prisons accountable, to lift 
the veil that protects the American public from knowing what is 
being done with billions of these taxpayer dollars.
    Mr. Horowitz. We are taking several steps, Senator. We 
issued the report on the Reeves County facility earlier this 
year, focusing on that particular private prison. Some of the 
issues we found there were of concern, much like you have just 
mentioned. Staffing levels, for example, as you know, Reeves 
County had a riot several years ago. One of the issues was 
supposedly staffing levels. We had concerns about staffing. We 
had concerns about the billing and the contracting practices. 
We made a variety of recommendations on that, as to that 
facility.
    We are currently looking at the Adams County facility in 
Mississippi, Leavenworth in Kansas, private prisons, as well as 
a broader review looking at the BOP's monitoring of overall 
contract prisons, because that is an issue of concern, as the 
spending has increased and the number of prisoners has gone 
from 2 percent to 20 percent of the overall Federal prison 
population. That is an issue of concern. So, we are doing those 
reviews.
    Several of the contract prisons, like Reeves, like Adams, 
like the Willacy facility, the Northeast Correctional Center of 
Ohio, have all had riots in the last several years. Those are 
contract prisons being used by the BOP and it has raised the 
concerns that we are looking at closely.
    Senator Booker. And, why not better reporting? Why cannot I 
or the public get the same kind of transparency in reporting 
that we would get with the prisons that are directly under the 
purview of Director Samuels?
    Mr. Horowitz. And that is something we are looking at, as 
well, because it is an issue both--we are looking at what kind 
of reporting the BOP is getting from these institutions, in 
addition, what kind of information is flowing and is 
accessible, and why is not more being done to be transparent 
about that.
    Chairman Johnson. Thank you, Senator Booker, and you can 
have my personal assurances that I will continue to work with 
you personally. We will continue to use this Committee to 
highlight these issues and work toward solutions. I think this 
is an important issue.
    I want to thank, again, both of you gentlemen for your 
service to this Nation, for your thoughtful testimony. I want 
to thank all the witnesses. I think we really did accomplish my 
primary goal of every hearing, which again, is to lay out the 
reality. Let us admit we have a problem. We have one here. I am 
not saying we have the real ready solutions, but we certainly 
have taken that first step and we have admitted we have the 
problem.
    So, with that, the hearing record will remain open for 5 
days, until August 19 at 5 p.m. for the submission of 
statements and questions for the record.
    This hearing is adjourned.
    [Whereupon, at 12:37 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
